No.

In the
Supreme Court of the United States
LEBAMOFF ENTERPRISES, INC., et al.,
Petitioners,
v.
GRETCHEN WHITMER,
GOVERNOR OF MICHIGAN, et al.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

James A. Tanford
(Counsel of Record)
Robert D. Epstein
Epstein Cohen Seif &
Porter, LLP
50 S. Meridian St, Ste 505
Indianapolis IN 46204
tanford@indiana.edu
(812) 332-4966
Counsel for Petitioners.

i
QUESTION PRESENTED
In Granholm v. Heald, 544 U.S. 460 (2005), this
Court applied the nondiscrimination principle of the
Commerce Clause to invalidate a state liquor law that
allowed in-state wineries to ship directly to consumers
but prohibited out-of-state wineries from doing so. In
Tenn. Wine & Spirits Retailers Ass’n v. Thomas, 139
S.Ct. 2449 (2019), this Court applied the
nondiscrimination principle to invalidate a state liquor
law that allowed residents to obtain retailer licenses
but prohibited nonresidents from doing so. Despite
these precedents, the Sixth Circuit in this case did not
apply the nondiscrimination principle to a Michigan
liquor law that allows in-state retailers to ship wine to
consumers but prohibits out-of-state retailers from
doing so. Instead, it held that the restriction was a
valid exercise of state authority under the Twenty-first
Amendment that was immune from Commerce Clause
scrutiny. The question, upon which the courts of
appeals disagree, is:
Whether a state liquor law that allows in-state
retailers to ship wine directly to consumers but
prohibits out-of-state retailers from doing so, is invalid
under the
nondiscrimination principle of the
Commerce Clause or is a valid exercise of the state’s
Twenty-first Amendment authority to regulate the sale
of alcoholic beverages within its borders.

ii
PARTIES TO THE PROCEEDINGS
Petitioners are Lebamoff Enterprises, Inc.,
Joseph Doust, Jack Stride, Jack Schulz, and Richard
Donovan. They were Plaintiffs-Appellees below.
Respondents are Gretchen Whitmer, Governor of
Michigan; Dana Nessel,1 Michigan Attorney General;
and Pat Gagliardi,2 Chairperson of the Michigan
Liquor Control Commission, in their official capacities,
and Michigan Beer & Wine Wholesalers Association
(intervenor). They were Defendants-Appellants below.
CORPORATE DISCLOSURE STATEMENT
Petitioner Lebamoff Enterprises, Inc., has no
parent corporation and there is no publicly held
company that owns 10% or more of its stock.
RELATED PROCEEDINGS
Lebamoff Enterprises, Inc., v. Snyder, No. 2:17-cv10191, U. S. District Court for the Eastern District of
Michigan. Judgment entered Sep. 28, 2018.
Lebamoff Enterprises, Inc., v. Whitmer, Nos 182199/2200, U.S. Court of Appeals for the Sixth Circuit.
Judgment entered Apr. 21, 2020.

1

Substituted for William Schuette per Sup. Ct. R. 35.3.

2

Substituted for Andrew Deloney per Sup. Ct. R. 35.3.

iii
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iv
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . . . . . . . 4
A. The Sixth Circuit’s decision to uphold a
discriminatory state liquor law under the
Twenty-first Amendment conflicts with
decisions from other circuits that discrimination violates the Commerce Clause . . . . . 5
B. The Sixth Circuit's decision that the Twentyfirst Amendment allows states to enact
discriminatory liquor laws so significantly
departs from this Court’s prior rulings that it
would call for an exercise of the Court's
supervisory power even if no Circuit split
existed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
APPENDIX A. Opinion of the Sixth Circuit Court of
Appeals, April 21, 2020 . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B. Opinion of the District Court for the
Eastern District of Michigan, Sep. 28, 2020 . . . . 28a
APPENDIX C. Order of the Sixth Circuit denying
rehearing, May 26, 2020 . . . . . . . . . . . . . . . . . . . . 47a
APPENDIX D. Michigan Comp. L. § 436.1203 . . . . 48a

iv
TABLE OF AUTHORITIES
CASES:
Anvar v. Tanner, 1:19-cv-00523 (D.R.I.).. . . . . . . . . . . 8
Arnold’s Wines, Inc. v. Boyle, 571 F.3d 185
(2d Cir.2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
B-21 Wines, Inc. v. Guy, 3:20-cv-00099 (W.D.N.C.) . 8
Bacchus Ltd. v. Dias, 468 U.S. 263 (1984) . . . . . . . . 9
Bernstein v. Graziano, 2:19-cv-14716 (D.N.J.) . . . . . 8
Brooks v. Vassar, 462 F.3d 341 (4th Cir.2006) . . . . . 7
Brown–Forman Dist. Corp. v. N.Y. State Liq.
Auth., 476 U.S. 573 (1986) . . . . . . . . . . . . . . . . . . . 10
Byrd v. Tenn. Wine & Spirits Retailers Assoc.,
883 F.3d 608 (6th Cir.2018) . . . . . . . . . . . . . . . . . . . 7
Chicago Wine Co. v. Holcomb, 1:19-cv-02785 (S.D.
Ind.). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Cooper v. Tex. Alcoholic Beverage Comm'n,
820 F.3d 730 (5th Cir.2016) . . . . . . . . . . . . . . . . . . . 7
Department of Revenue of Ky. v. Davis, 553 U.S. 328
(2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Granholm v. Heald, 544 U.S. 460 (2005). . . . passim
Healy v. Beer Inst., 491 U.S. 324 (1989) . . . . . . . . . 10
Lebamoff Enterpr., Inc. v. O’Connell, No. 1:16-cv08607 (N.D. Ill.)8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Lebamoff Enterpr., Inc. v. Rauner, 909 F.3d 847
(7th Cir. 2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

v
Lebamoff Enterpr., Inc. v. Snyder, 347 F.Supp. 3d
301 (E.D. Mich, 2018) . . . . . . . . . . . . . . . . . . . . . . . . 3
Maine v. Taylor, 477 U.S. 131, 138 (1986) . . . . . . . 11
New Energy Co. of Ind. v. Limbach, 486 U.S.
269 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Or. Waste Sys., Inc. v. Dept. of Envirtl. Quality,
511 U.S. 93 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Peoples Super Liquor Stores, Inc. v. Jenkins, 432
F.Supp.2d 200 (D. Mass. 2006) . . . . . . . . . . . . . . . . . 8
Sarasota Wine Market, LLC v. Schmitt, No. 19-1948
(8th Cir.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Siesta Vill. Mkt., LLC v. Granholm, 596 F.Supp.2d
1035 (E.D. Mich. 2008) . . . . . . . . . . . . . . . . . . . . . . . 7
Southern Wine & Spirits of Am., Inc. v. Div. of Alco.
& Tobacco Control, 731 F.3d 799 (8th Cir.2013) . . . . 7
State of Ohio v. Wine.com, Inc., 2:20-cv-03430
(S.D. Ohio). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Tannins of Indianapolis, LLC v. Taylor, 3:19-cv00504 (W.D. Ky.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Tenn. Wine & Spirits Retailers Ass’n v. Thomas,
139 S.Ct 2449 (2019) . . . . . . . . . . . . . . . . . . . . 4, 9, 11
CONSTITUTIONS, STATUTES AND RULES:
U.S. Const., Art. I, § 8, cl. 3, . . . . . . . . . . . . . . passim
U.S. Const., Amend. XXI, § 2 . . . . . . . . . . . . . passim
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

vi
Mich. Comp. L. § 436.1203:. . . . . . . . . . . . . . . . 1, 3, 6
Miscellaneous:
Natalie Gagliordi, Online retail sales surge 49%
during pandemic shutdown (May 12, 2020).
https://www.zdnet. com/article/online-retail-salessurge-49-during- pandemic-shutdown/ (last
visited June 27, 2020) . . . . . . . . . . . . . . . . . . . . . . . . 4
National Org. of Wine Retailers, Legislation.
https:// nawr.org/issues/legislation/ (last visited
June 27, 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Thomas Pellechia, Direct-To-Consumer Captures
10.8% Of The 2019 Domestic Wine Retail Market,
FORBES, Feb. 20, 2020. https://www.forbes.com/sites/
thomaspellechia/2020/02/20/direct-to-consumercaptures-108-of-the-2019-domestic-wine-retailmarket/#2e 04c5817eb6 (last visited June 27,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
PETITION FOR A WRIT OF CERTIORARI

OPINIONS BELOW
This petition seeks review of the decision of the
United States Court of Appeals for the Sixth Circuit in
Lebamoff Enterprises, Inc. v. Whitmer (App., infra, 1a27a), reported at 956 F.3d 863. The opinion and order
of the United States District Court for the Eastern
District of Michigan (App., infra, 28a-46a), is reported
at 347 F.Supp. 3d 301.
JURISDICTION
The opinion of the court of appeals was entered on
April 21, 2020. A petition for rehearing was denied on
May 26, 2020 (App., infra, 47a). This Court has
jurisdiction under 28 U.S.C. § 1254(1) to hear this case
by writ of certiorari.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
A. The Commerce Clause, U.S. Const., Art. I, § 8,
cl. 3: The Congress shall have Power... To regulate
Commerce with foreign Nations, and among the several
States, and with the Indian Tribes.
B. The 21st Amendment, U.S. Const., Amend. XXI,
§ 2: The transportation or importation into any State,
Territory, or possession of the United States for
delivery or use therein of intoxicating liquors, in
violation of the laws thereof, is hereby prohibited.
C. Michigan Comp. L. § 436.1203: Relevant sections
are reprinted in the appendix. App., infra, 48a-59a.

2
STATEMENT OF THE CASE
This case challenges the constitutionality of a
provision in Michigan's Liquor Control Code that
prohibits out-of-state retailers from shipping wine to
consumers but allows in-state retailers to do so. This
difference in treatment violates the Commerce Clause
and is not saved by the Twenty-first Amendment,
because it discriminates against interstate commerce
and gives economic protection to local businesses.
In 2005, this Court declared unconstitutional two
state laws that prohibited out-of-state wineries from
shipping to consumers but allowed in-state wineries to
do so. Granholm v. Heald, 544 U.S. 460 (2005). The
Court said that “If a State chooses to allow direct
shipment of wine, it must do so on evenhanded terms.”
544 U.S. at 493. In the fifteen years since then, fortyfour states have modernized their alcoholic beverage
laws to allow both in-state and out-of-state wineries to
sell and ship to consumers on evenhanded terms.
The states have been slower to modernize their
beverage laws to allow retailers to sell wine online and
ship it to consumers’ homes. At least thirteen states
now allow both in-state and out-of-state retailers to
ship wine to consumers, but many others have
repeated the pattern that existed before Granholm.
They allow in-state retailers to deliver wine but
prohibit out-of-state retailers from doing so. This case
is one of a dozen filed around the country asking the
courts to extend Granholm to online sales by retailers
and rule that if a state chooses to allow direct
shipment of wine by retailers, it must do so on
evenhanded terms.

3
This case challenges Michigan’s law that only
retailers “located in this State” may sell wine online
and ship it to consumers. Mich. Comp. L. § 436.1203(3),
(15). App., infra, 49a, 52a. Petitioners brought this
action in the Eastern District of Michigan pursuant to
42 U.S.C. § 1983. They sought a declaratory judgment
that this law violated the nondiscrimination principle
of the Commerce Clause. The district court had
jurisdiction pursuant to 28 U.S.C. § 1331 which confers
original jurisdiction on federal district courts to hear
suits arising under the Constitution and laws of the
United States. On cross-motions for summary
judgment, the district court declared the law
unconstitutional. It ruled that the difference in
treatment violated the Commerce Clause and was not
saved by the Twenty-first Amendment because the
State had not proved that it advanced a legitimate
local purpose that could not be adequately served by
reasonable alternatives. Lebamoff Enterpr., Inc. v.
Snyder, 347 F.Supp. 3d 301, 308-10 (E.D. Mich, 2018)
(App., infra, 39a-43a).
The court of appeals reversed and upheld the law
despite its discriminatory nature. Lebamoff Enterpr.,
Inc. v. Whitmer, 956 F.3d 863 (6th Cir. 2020). It
declined to subject the law to Commerce Clause
analysis and ruled that the Twenty-first Amendment
authorized states to restrict shipping to in-state
retailers only, id. at 867 (App., infra, 2a, disregarding
this Court’s holding to the contrary that
“discrimination is contrary to the Commerce Clause
and is not saved by the 21st Amendment.” Granholm
v. Heald, 544 U.S. at 489. It did not require the State
to prove that the ban advanced a local purpose that

4
could not be served by reasonable alternatives,
ignoring this Court’s repeated holdings that such
scrutiny is required. E.g., Tenn. Wine & Spirits
Retailers Ass’n v. Thomas, 139 S.Ct 2449, 2461 (2019);
Granholm v. Heald, 544 U.S. at 472.
The court of appeals denied a petition for rehearing
and rehearing en banc. App., infra, 47a.
REASONS FOR GRANTING THE PETITION
This Court should grant the petition for a writ of
certiorari and reverse. The Sixth Circuit upheld the
constitutionality of a Michigan law that discriminated
against interstate commerce by allowing in-state, but
not out-of-state, retailers to sell wine online and ship
it to consumers. The court of appeals explicitly declined
to apply this Court’s prior decisions that other kinds of
discriminatory state liquor laws violate the Commerce
Clause unless the state can prove that there are no
reasonable regulatory alternatives. The decision is
wrong and conflicts with cases from other circuits.
The issue is important. Throughout the country,
states are considering how best to balance the need to
regulate wine as an alcoholic beverage against the
growing demand from consumers for online ordering
and home deliveries.3 There has been a surge of online
ordering of all kinds of products during the pandemic,4
3

See Nat’l Org. of Wine Retailers, Legislation. https://
nawr.org/issues/legislation/ (last visited June 27, 2020).
4

Natalie Gagliordi, Online retail sales surge 49% during
pandemic shutdown (May 12, 2020) https://www.zdnet.
com/article/online-retail-sales-surge-49-during-pandemicshutdown/ (last visited June 27, 2020).

5
and wine is no exception. Wine ordered online now
accounts for 10.8% of domestic retail wine sales, or $3.2
billion annually, and the demand for home delivery is
expanding.5 This Court has not heretofore given a
definitive answer on the extent to which states may
expand their online sales market but prohibit out-ofstate wine retailers from participating. It should grant
the writ of certiorari in this case and resolve the issue.
A. The Sixth Circuit’s decision to uphold a
discriminatory state liquor law under the
Twenty-first Amendment conflicts with
decisions from other circuits that
discrimination violates the Commerce Clause
The constitutionality of state laws that prohibit
out-of-state businesses from selling wine online and
shipping it to consumers, but allow in-state businesses
to do so, depends on the interaction between the
Commerce Clause and Section 2 of the Twenty-first
Amendment. The Commerce Clause prohibits
discrimination against out-of-state interests, while the
Amendment gives states broad authority to regulate
the sale of alcohol within their borders. This Court
seemingly resolved the balance between these two
provisions in Granholm v. Heald, ruling that “[i]f a
State chooses to allow direct shipment of wine, it must
do so on evenhanded terms.” 544 U.S. at 493. It held

5

Thomas Pellechia, Direct-To-Consumer Captures 10.8%
Of The 2019 Domestic Wine Retail Market, FORBES, Feb. 20,
2020, https://www.forbes.com/sites/thomaspellechia /2020/
02/20/direct-to-consumer-captures-108-of-the-2019domestic-wine-retail-market/#2e04c5817eb6 (last visited
June 27, 2020).

6
that “state regulation of alcohol is limited by the
nondiscrimination principle of the Commerce Clause,"
id. at 487, and “is not saved by the 21st Amendment.
” Id. at 489.
Despite this clear language, the Sixth Circuit
upheld a Michigan law that did exactly what
Granholm said the Constitution forbids. It gave the
exclusive right to sell wine online and deliver it to
consumers to retailers located in Michigan. Mich.
Comp. L. § 436.1203(3). App., infra, 49a.The court held
that Granholm did not apply and that Michigan could
constitutionally discriminate against out-of-state wine
retailers and limit direct shipping rights to in-state
retailers. 956 F.3d at 870. App., infra, 7a. It held that
the law was “immune” from challenge under the
Commerce Clause, id. and “the Twenty-first
Amendment permits Michigan to treat in-state
retailers ... differently from out-of-state retailers.” Id.
at 867. App., infra, 2a.
This conflicts with the Seventh Circuit’s recent
opinion on the constitutionality of a similar Illinois
law. The Seventh Circuit held that Granholm did apply
and was the controlling law. Lebamoff Enterpr, Inc. v.
Rauner, 909 F.3d 847, 853 (7th Cir. 2018). Laws
regulating retailers were not immune from challenge
under the Commerce Clause, and the Twenty-first
Amendment did not permit states to treat in-state
retailers more favorably than out-of-state retailers
because “state regulation of alcohol is limited by the
nondiscrimination principle of the Commerce Clause”
Id. Limiting online wine sales to in-state retailers only
is not authorized by the Twenty-first Amendment
unless the State proves that it has no other way to

7
protect its interests. Id. at 853-55.
In the Seventh Circuit opinion, Chief Judge Wood
noted that there was a “split over the best reading” of
Granholm and its applicability to laws that
discriminate against out-of-state wine retailers.
Lebamoff Enterpr., Inc. v. Rauner, 909 F.3d at 853.
Judge Wood wrote:
Some [courts] see Granholm as establishing a
rule immunizing the three-tier system from
constitutional attack so long as it does not
discriminate between in-state and out-of-state
producers or products. The idea is that the
Twenty-first Amendment overrides the
Commerce Clause and permits states to treat
in-state retailers and wholesalers differently
from their out-of-state equivalents. Arnold’s
Wines, Inc. v. Boyle, 571 F.3d 185, 190–91 (2d
Cir.2009); Brooks v. Vassar, 462 F.3d 341, 352
(4th Cir.2006) (Niemeyer, J., writing only for
himself); Southern Wine & Spirits of Am., Inc.
v. Division of Alcohol & Tobacco Control, 731
F.3d 799, 809–10 (8th Cir.2013). More courts
have read Granholm simply to reaffirm a
general non-discrimination principle, although
the principle may carry greater or lesser weight
at different tiers of a three-tier system. Brooks,
462 F.3d at 354; Cooper v. Tex. Alcoholic
Beverage Comm'n, 820 F.3d 730, 743 (5th
Cir.2016); Byrd v. Tenn. Wine & Spirits
Retailers Assoc., 883 F.3d 608, 618 (6th
Cir.2018); Siesta Vill. Mkt., LLC v. Granholm,
596 F.Supp.2d 1035, 1039 (E.D. Mich. 2008);

8
Peoples Super Liquor Stores, Inc. v. Jenkins,
432 F.Supp.2d 200, 221 (D. Mass. 2006).
Finally, one judge understands Granholm to
preclude any Twenty-first Amendment protection for state laws that otherwise violate the
dormant Commerce Clause. Brooks, 462 F.3d at
361 (Goodwin, J., concurring in part and
dissenting in part).
909 F.3d at 853-54.
This disagreement among the Circuits is significant
because there are seven cases currently pending in
lower federal courts on the validity of state laws that
allow in-state, but not out-of-state, retailers to engage
in online sales and home deliveries of wine. Sarasota
Wine Market, LLC v. Schmitt, No. 19-1948 (8th Cir.);
Lebamoff Enterpr., Inc. v. O’Connell, No. 1:16-cv-08607
(N.D. Ill.); Chicago Wine Co. v. Holcomb, 1:19-cv-02785
(S.D. Ind.); Tannins of Indianapolis, LLC v. Taylor,
3:19-cv-00504 (W.D. Ky.); B-21 Wines, Inc. v. Guy, 3:20cv-00099 (W.D.N.C.); Bernstein v. Graziano, 2:19-cv14716 (D.N.J.); Anvar v. Tanner, 1:19-cv-523 (D. R.I.);
State of Ohio v. Wine.com, Inc., 2:20-cv-03430 (S.D.
Ohio). The issue will be a matter of first impression in
some circuits, and the courts need to know which legal
standard to apply.

9
B. The Sixth Circuit's decision that the
Twenty-first Amendment allows states to
enact discriminatory liquor laws so
significantly departs from this Court’s prior
rulings that it would call for an exercise of
the Court's supervisory power even if no
Circuit split existed
The Sixth Circuit held that the Twenty-first
Amendment gives states the authority to regulate wine
sales regardless of whether those regulations
discriminate against out-of-state interests, 956 F.3d at
873-74 (App., infra, 13a-15a), and immunizes those
laws from being challenged under the Commerce
Clause. Id. at 870. App, infra, 7a. This decision
conflicts with prior cases from this Court, every one of
which holds to the contrary, that if a state liquor law is
discriminatory, it is no longer protected by the Twentyfirst Amendment and must be reviewed under
Commerce Clause principles.
The precedents are clear and unambiguous. In
Bacchus Ltd. v. Dias, 468 U.S. 263, 276 (1984), this
Court held that the Amendment did not “empower
States to favor local liquor industries by erecting
barriers to competition.” In Granholm v. Heald, the
Court held that “Bacchus forecloses any contention
that § 2 of the Twenty-first Amendment immunizes
discriminatory direct-shipment laws from Commerce
Clause scrutiny.” 544 U.S. at 487-88. A discriminatory
liquor law “is not saved by the Twenty-first
Amendment.” Id. at 489. The Amendment gives a state
the authority to ban all direct shipping, but not to ban
direct shipments from out of state while
simultaneously authorizing in-state direct shipments.

10
“If a State chooses to allow direct shipment of wine, it
must do so on evenhanded terms.” Id at 493. In Tenn.
Wine & Spirits Retailers Ass’n v. Thomas, 139 S.Ct at
2470, the Court reiterated that although the
Amendment grants States latitude to regulate alcohol,
it “has repeatedly declined to read § 2 as allowing the
States to violate the nondiscrimination principle” of the
Commerce Clause. Accord Healy v. Beer Inst., 491 U.S.
324, 342 (1989) (Twenty-first Amendment does not
immunize state laws from the Commerce Clause).
The precedents of this Court require that a form of
strict scrutiny be applied – an “exacting standard”
where the "burden is on the State to show that the
discrimination is demonstrably justified" with
“concrete record evidence [that] nondiscriminatory
alternatives will prove unworkable.” Granholm v.
Heald, 544 U.S. at 492-93. Real evidence is required
and “mere speculation or unsupported assertions are
insufficient to sustain a law that would otherwise
violate the Commerce Clause.” Tenn. Wine & Spirits
Retailers Assoc. v. Thomas, 139 S.Ct. 2449, 2474
(2019). “When a state statute ... discriminates against
interstate commerce, or when its effect is to favor instate economic interests over out-of-state interests, we
have generally struck down the statute without further
inquiry.” Brown–Forman Dist. Corp. v. N.Y. State Liq.
Auth., 476 U.S. 573, 579 (1986).
The Sixth Circuit did not apply strict scrutiny.
Indeed, it explicitly rejected what it called the
“skeptical” review that had been applied in other
Commerce Clause/Twenty-first Amendment cases. 956
F.3d at 869. App., infra, 6a. Instead, it applied only the
minimal scrutiny used when laws are not

11
discriminatory. It presumed that the discriminatory
ban on interstate shipping promoted temperance even
in the absence of any evidence from the State and
shifted the burden to the plaintiffs to prove that the
law served no legitimate purpose. Id. at 872-74. App.,
infra, 15a. Perhaps most troubling was the panel’s
criticism of this Court’s prior decisions invalidating
discriminatory state liquor laws on the grounds that
the propriety of alcoholic beverage laws should be left
to the states, “not to federal judges.” Id. at 875. App.,
infra, 19a.
This Court has repeatedly held that if a state
statute discriminates against interstate commerce, it
can be upheld only if the State proves that reasonable
nondiscriminatory alternatives are unworkable. Tenn.
Wine & Spirits Retailers Ass’n v. Thomas, 139 S.Ct. at
2474, 2475; Department of Revenue of Ky. v. Davis, 553
U.S. 328, 338 (2008); Granholm v. Heald, 544 U.S. at
492-93; Or. Waste Sys., Inc. v. Dept. of Envirtl. Quality,
511 U.S. 93, 100–101 (1994); New Energy Co. of Ind. v.
Limbach, 486 U.S. 269, 278 (1988); Maine v. Taylor,
477 U.S. 131, 138 (1986). The Sixth Circuit opinion
does not even mention this requirement, let alone
discuss the availability of alternatives used in
Michigan and other states which were brought to its
attention by the parties. See Brief of PlaintiffsAppellees at 29-30, 32-33, 39 (Doc. No. 33, 18-2199).
The Sixth Circuit has openly refused to follow this
Court's Commerce Clause/Twenty-first Amendment
precedents. If the opinion is allowed to stand, it will
create an intolerable situation in which the Sixth
Circuit could become the only circuit where heightened
scrutiny is not given to laws with discriminatory

12
effects. This reason alone would call for an exercise of
this Court's supervisory power to vacate the opinion
even if no Circuit split existed.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
James A. Tanford
(Counsel of Record)
Robert D. Epstein
Epstein Cohen Seif &
Porter, LLP
50 S. Meridian St, Ste 505
Indianapolis IN 46204
tanford@indiana.edu
(812) 332-4966
Counsel for Petitioners

1a
APPENDIX A. Opinion of the Court of Appeals
for the Sixth Circuit [Filed Apr. 21, 2020]
Nos. 18-2199/2200
Lebamoff Enterprises Inc.; Joseph Doust; Jack
Stride; Jack Schulz; Richard Donovan,
Plaintiffs-Appellees,
v.
Gretchen Whitmer; Dana Nessel; Pat Gagliardi,
Defendants-Appellants (18-2199),
Michigan Beer & Wine Wholesalers Association,
Intervenor Defendant-Appellant (18-2200).
Before: Sutton, McKeague, and Donald, Circuit
Judges.
SUTTON, Circuit Judge.
The parties agree that the Twenty-first
Amendment allows Michigan to distribute alcohol
within its borders solely through a three-tier system,
one composed of producers, wholesalers, and retailers.
And the parties agree that Michigan may impose all
manner of regulations on its wholesalers (e.g., that
they be in the State, adhere to minimum prices, and
decline to offer volume discounts) as well as on its
retailers (e.g., that they be present in the State, sell
only within the State, and comply with
health-and-safety rules). What separates the parties is
whether Michigan may permit its retailers to offer
at-home deliveries within the State while denying the
same option to an Indiana retailer who does not have
a Michigan retail license. Because the Twenty-first
Amendment permits Michigan to treat in-state
retailers (who operate within the three-tier system)

2a
differently from out-of-state retailers (who do not), we
uphold the law.
I.
Some history is in order. Before Prohibition,
alcohol producers typically sold their beer and liquor
through “tied-house” saloons. They set up
saloonkeepers with a building and equipment in
exchange for promises to sell only their drinks and to
meet minimum sales goals. The system efficiently
brought alcohol to market, keeping prices low and
choices aplenty. But not all efficient markets are useful
markets. You can have too much of a good thing.
Excessive alcohol consumption came with costs for
individuals and the public—addiction, crime, violence,
and family troubles among them. As “absentee
owners,” the producers in the tied-house system rarely
had to come to grips with these costs: They “knew
nothing and cared nothing about the community.”
Raymond B. Fosdick & Albert L. Scott, Toward Liquor
Control 33 (Ctr. for Alcohol Policy 2011) (1933). When
this market structure approached its peak, the
Supreme Court remarked that “[t]he statistics of every
state show a greater amount of crime and misery
attributable to the use of ardent spirits obtained at
these retail liquor saloons than to any other source.”
Crowley v. Christensen, 137 U.S. 86, 91, 11 S.Ct. 13, 34
L.Ed. 620 (1890).
Extreme problems sometimes prompt extreme
solutions. With ratification of the Eighteenth
Amendment, the American people chose national
prohibition as the way to address these problems. This
experiment solved some problems but generated
others. With ratification of the Twenty-first
Amendment, the people brought this thirteen-year trial

3a
to a close. While Prohibition prompted a significant
expansion of the federal government’s role in law
enforcement, see generally Lisa McGirr, The War on
Alcohol: Prohibition and the Rise of the American State
(2015), its demise returned control over alcohol
regulation to the States. Section 2 of the Twenty-first
Amendment delegates to each State the choice whether
to permit sales of alcohol within its borders and, if so,
on what terms and in what way. Some States initially
kept a ban on alcohol in place. Others permitted it
through highly regulated markets to prevent the
problems associated with tied-house saloons from
resurfacing. To tighten the reins, States developed
“three-tier” systems for alcohol distribution. Tenn.
Wine & Spirits Retailers Ass’n v. Thomas, ––– U.S.
––––, 139 S. Ct. 2449, 2463 n.7, 204 L.Ed.2d 801
(2019). To this day, most States retain three-tier
systems. Count Michigan as one of them.
In a three-tier system, the State forbids alcohol
producers (the first tier) to sell directly to retailers or
consumers. To access the market, producers must sell
to wholesalers located within the State (the second
tier). After that, in-state wholesalers sell exclusively to
in-state retailers (the third tier), who make final sales
to consumers. To avoid the tied-house system’s
“absentee owner” problem, businesses at each tier must
be independently owned, and no one may operate more
than one tier. See Mich. Comp. Laws § 436.1603(4),
(13). States also restrict cooperation and joint
marketing efforts that have similar effects.
Wholesalers play a key role in three-tier systems.
Typically few in number and often state-owned, they
are the in-state path through which all alcohol passes
before reaching consumers. That allows States, if they

4a
wish, to control the amount of alcohol sold through
price controls, taxation, and other regulations.
Michigan, for example, imposes minimum prices and
prohibits wholesalers from offering volume discounts or
selling on credit. See, e.g., id. § 436.2013. When it
comes to liquor (though not wine and beer), the State
is the wholesaler in Michigan. See id. § 436.1231.
Michigan is not the strictest State when it comes to
alcohol distribution. Take Utah. For all alcoholic
products save light beer, the State is the sole importer
and main retailer, making it essentially a two-tier
system. See Utah Code Ann. §§ 32B-2-202, 204, 501; id.
§ 32B-7-202.
Whether in Michigan, Utah, or elsewhere, this is
not Adam Smith’s idea of an efficient market. Then
again, efficiency is not the goal of the Twenty-first
Amendment, whether in the form of easy-to-get alcohol
or easy-to-pay-for alcohol. The Amendment gave each
State the choice whether to allow any alcohol to be sold
within its borders, to allow alcohol to be sold through
a market heavily regulated by the visible hand of the
State, or to allow alcohol to be sold with little
regulation at all.
Against this backdrop, Michigan recently amended
its Liquor Control Code. The law allows in-state
retailers to deliver directly to consumers using
state-licensed “third party facilitators” or common
carriers like FedEx or UPS. 2016 Mich. Pub. Acts 520,
§ 203(3), (15).
In response, Lebamoff Enterprises, a wine retailer
based in Fort Wayne, Indiana, along with several
Michigan wine consumers filed this lawsuit. They
allege that the new law violates the Commerce Clause

5a
and the Privileges and Immunities Clause. The
Michigan Beer & Wine Wholesalers Association
intervened as a defendant.
Both sides moved for summary judgment. The
court ruled for the claimants. In choosing a remedy for
the violation, the court extended delivery rights to
out-of-state retailers rather than returning matters to
the no-delivery status quo. Michigan obtained a stay
pending appeal.
II.
A.
Resolution of this case turns on the accordion-like
interplay of two provisions of the United States
Constitution. One is the Commerce Clause, which gives
Congress the power “[t]o regulate Commerce ... among
the several States.” U.S. Const. art. I, § 8, cl. 3. The
Clause grants Congress power to preempt or permit
state laws that interfere with interstate commerce, and
it impliedly “prohibits state laws,” as determined by
the federal courts, “that unduly restrict interstate
commerce.” Tenn. Wine & Spirits, 139 S. Ct. at 2459.
Under the implied prohibition, if a state law
discriminates against “out-of-state goods or
nonresident economic actors,” it may survive only if
tailored to advance a legitimate state purpose. Id. at
2461.
The other provision is the Twenty-first
Amendment. While the Commerce Clause grants
Congress power to eliminate state laws that
discriminate against interstate commerce, the
Twenty-first Amendment grants the States the power
to regulate commerce with respect to alcohol. Section
2 of the Amendment bars “[t]he transportation or

6a
importation into any State, Territory, or possession of
the United States for delivery or use therein of
intoxicating liquors, in violation of the laws thereof.”
U.S. Const. amend. XXI, § 2. The section gives the
States broad latitude to regulate the distribution of
alcohol within their borders. See North Dakota v.
United States, 495 U.S. 423, 432–33, 110 S.Ct. 1986,
109 L.Ed.2d 420 (1990) (plurality opinion); see also id.
at 447–48, 110 S.Ct. 1986 (Scalia, J., concurring in the
judgment). Indeed, had Congress (as opposed to the
people through the ratification process) enacted this
exact law, it is doubtful there would be any role for the
federal courts to play. When faced with a dormant
Commerce Clause challenge to an alcohol regulation,
as a result, we apply a “different” test. Tenn. Wine &
Spirits, 139 S. Ct. at 2474. Rather than skeptical
review, we ask whether the law “can be justified as a
public health or safety measure or on some other
legitimate nonprotectionist ground.” Id. But if the
“predominant effect of the law is protectionism,” rather
than the promotion of legitimate state interests, the
Twenty-first Amendment does not “shield[ ]” it. Id.
At the outset, it’s worth acknowledging that case
law authorizes several features of Michigan’s system
for regulating the distribution of alcohol within its
borders.
The courts have frequently said that the
Twenty-first Amendment permits a three-tier system
of alcohol distribution, and the Commerce Clause does
not impliedly prohibit it. Nothing stops States, the
Court has explained, from “funnel[ing] sales through
the three-tier system,” a practice that is
“unquestionably legitimate.” Granholm v. Heald, 544
U.S. 460, 489, 125 S.Ct. 1885, 161 L.Ed.2d 796 (2005)

7a
(quotation omitted); see Tenn. Wine & Spirits, 139 S.
Ct. at 2471–72; Cal. Retail Liquor Dealers Ass’n v.
Midcal Aluminum, Inc., 445 U.S. 97, 110, 100 S.Ct.
937, 63 L.Ed.2d 233 (1980). Granholm, a case from
Michigan, left no drama about the issue: “States can
mandate a three-tier distribution scheme in the
exercise of their authority under the Twenty-first
Amendment.” 544 U.S. at 466, 125 S.Ct. 1885. We have
echoed the point: A State’s “decision to adhere to a
three-tier distribution system is immune from direct
challenge on Commerce Clause grounds.” Jelovsek v.
Bredesen, 545 F.3d 431, 436 (6th Cir. 2008); see Byrd v.
Tenn. Wine & Spirits Retailers Ass’n, 883 F.3d 608,
616, 623 (6th Cir. 2018).
The courts also have permitted States to regulate
wholesalers (the second tier) as a way to control the
volume of alcohol sold in a State and the terms on
which it is sold. See North Dakota, 495 U.S. at 432–33,
110 S.Ct. 1986 (plurality opinion); see also id. at
447–48, 110 S.Ct. 1986 (Scalia, J., concurring in the
judgment); Bridenbaugh v. Freeman-Wilson, 227 F.3d
848, 853–54 (7th Cir. 2000); S. Wine & Spirits of Am.,
Inc. v. Div. of Alcohol & Tobacco Control, 731 F.3d 799,
810–11 (8th Cir. 2013). The Michigan system shows
how this works. The State is the wholesaler for liquor,
and it sells at an inflated price through
state-authorized distribution agents. See Mich. Comp.
Laws §§ 436.1231, 1233. As for private wholesalers of
beer and wine, Michigan imposes many restrictions:
minimum prices, no sales on credit, no volume
discounts. See id. §§ 436.2013, 1609a(5); Mich. Admin.
Code R. 436.1726(4). The State also regulates retail
prices indirectly. It heavily taxes wholesalers, prohibits
consignment sales, and restricts the terms on which
wholesalers may buy from producers. See Mich. Comp.

8a
Laws §§ 436.1301, 1409(2). To avoid the “tied-house”
problem, Michigan prohibits wholesalers from giving
anything of value to retailers, and it prohibits them
from having a financial interest in any producer,
retailer, or other wholesaler. See id. § 436.1603; Mich.
Admin. Code R. 436.1651(3), 1735. To enforce these
rules, Michigan requires wholesalers to post and hold
their prices (to ensure uniformity across retailers and
compliance with the pricing restrictions) and to keep
records of all sales ready for random inspection. Mich.
Admin. Code R. 436.1726.
The federal courts also have permitted States, like
Michigan, to require retailers to be physically based in
the State. Byrd, 883 F.3d at 622–623 & n.8; Cooper v.
Tex. Alcoholic Beverage Comm’n, 820 F.3d 730, 743
(5th Cir. 2016). The Michigan licensing process for
retailers ensures no violations of “tied-house” rules and
no suspect sources of capital. To ensure compliance
with its many regulations, the Commission conducts
random inspec-tions, over 18,000 in 2016 alone, and
sting operations. Retailers also must comply with rules
governing their physical layout, storage of alcohol,
recordkeeping, advertisements, and employee training.
Mich. Admin. Code R. 436.1007, 1023, 1025, 1309–25,
1501–33.
B.
All of this leaves a narrow question. If Michigan
may have a three-tier system that requires all alcohol
sales to run through its in-state wholesalers, and if it
may require retailers to locate within the State, may it
limit the delivery options created by the new law to
in-state retailers? The answer is yes.
“[A]ny notion of discrimination assumes a

9a
comparison of substantially similar entities.” Gen.
Motors Corp. v. Tracy, 519 U.S. 278, 298, 117 S.Ct.
811, 136 L.Ed.2d 761 (1997). That is not clear when it
comes to a comparison between Michigan retailers and
Indiana retailers like Lebamoff. True, they both sell
the same product to consumers. True also, retailers in
Northern Indiana and Southern Michigan presumably
compete with each other for those consumers. But they
operate in distinct regulatory environments, the most
notable distinction being that Michigan-based retailers
may purchase only from Michigan wholesalers and
must operate within its three-tier system and comply
with its other regulations. That may affect whether the
kind of discrimination targeted by the dormant
Commerce Clause is afoot. See Wine Country Gift
Baskets.com v. Steen, 612 F.3d 809, 820 (5th Cir. 2010)
(upholding a similar statute on this ground). But we
need not decide the case on this basis.
Even if Indiana and Michigan retailers count as
similarly situated under the dormant Commerce
Clause, Lebamoff’s claim overlooks the restless specter
of the Twenty-first Amendment. Due to the
Amendment, Commerce Clause challenges to alcohol
regulation face a “different” test. Tenn. Wine & Spirits,
139 S. Ct. at 2474. We ask only whether the law “can
be justified as a public health or safety measure or on
some other legitimate nonprotectionist ground.” Id.
Michigan’s law promotes plenty of legitimate state
interests, and any limits on a free market of alcohol
distribution flow from the kinds of traditional
regulations that characterize this market, not state
protectionism. The States, the Court has explained,
have legitimate interests in “promoting temperance
and controlling the distribution of [alcohol].” North

10a
Dakota, 495 U.S. at 433, 438–39, 110 S.Ct. 1986
(plurality opinion); see id. at 447–48, 110 S.Ct. 1986
(Scalia, J., concurring in the judgment); Granholm, 544
U.S. at 484, 125 S.Ct. 1885; Bacchus Imports, Ltd. v.
Dias, 468 U.S. 263, 276, 104 S.Ct. 3049, 82 L.Ed.2d
200 (1984); cf. 44 Liquormart, Inc. v. Rhode Island, 517
U.S. 484, 504–07, 116 S.Ct. 1495, 134 L.Ed.2d 711
(1996). To promote these interests, States have
“virtually complete control over whether to permit
importation or sale of liquor and how to structure
the[ir] liquor distribution system[s].” Granholm, 544
U.S. at 488, 125 S.Ct. 1885; see North Dakota, 495 U.S.
at 424, 110 S.Ct. 1986 (plurality opinion); Midcal
Aluminum, 445 U.S. at 110, 100 S.Ct. 937.
Consistent with these decisions, several lower
courts have permitted the States to prohibit
out-of-state direct deliveries as a valid exercise of their
Twenty-first Amendment authority.
The Seventh Circuit got the ball rolling. In an
opinion by Judge Easterbrook, the court upheld an
Indiana statute that prohibited direct alcohol
deliveries from out of state but allowed in-state
retailers and wholesalers to “deliver directly to
consumers’ homes.” Bridenbaugh, 227 F.3d at 853–854.
The Twenty-first Amendment, he explained,
necessarily authorizes some discrimination, as any
regulation of the “transportation or importation into
any state,” U.S. Const. amend. XXI, § 2, necessarily
protects local sellers by “leav[ing] intrastate commerce
unaffected,” Bridenbaugh, 227 F.3d at 853. And the
Amendment’s historical backdrop confirms that, at the
very least, it authorized bans on direct deliveries from
out of state. Id. at 851–53. All in all, the court
concluded, Indiana’s delivery ban was not functionally

11a
discriminatory at all. It simply “channel[ed]” all
alcohol, from within the State and outside of it,
through in-state distributors to facilitate state taxation
and regulation, “precisely” what the Twenty-first
Amendment was for. Id.at 854. In view of the Seventh
Circuit’s decision to uphold the Indiana law, consider
the inequities that would arise if we invalidated the
Michigan law. It would mean that Indiana retailers
could make direct deliveries within Michigan, but
Michigan retailers could not do the same in Indiana.
That’s no way to run a railroad—or manage
cross-border trade.
The Second Circuit upheld a similar law. It
permitted in-state retailers to deliver to customers’
homes (through their own vehicles or trucking
companies) but barred out-of-state retailers from doing
the same. Arnold’s Wines, Inc. v. Boyle, 571 F.3d 185,
187, 191 (2d Cir. 2009). Banning direct deliveries from
out-of-state, the court reasoned, was necessary to
ensure “all liquor sold within” the state passed through
in-state wholesalers. Id. at 186. And state control of the
wholesalers, it added, promoted “core” Twenty-first
Amendment interests by “promoting temperance [and]
ensuring orderly market conditions.” Id. at 188, 191
(quotation omitted). The court rejected the claim that
the law amounted to a cover for economic protectionism
and held that Granholm confirmed its validity. Id. at
191.
The Fifth Circuit upheld a Texas statute that
allowed local delivery by in-state retailers but
prohibited deliveries from outside the State. Steen, 612
F.3d at 812. It upheld the law for much the same
reasons as the courts that went before it: Differential
treatment of out-of-state deliveries was necessary to
preserve the three-tier system and the regulatory

12a
objectives it served. Id. at 819–20. Nor did in-state
delivery privileges undermine this rationale. Like
“carry[ing] the beverages to a customer’s vehicle parked
in [a retailer’s] lot, or across the street,” in-state
deliveries were a “a constitutionally benign incident” of
a three-tier a system. Id. at 819, 820.
As these opinions suggest, there is nothing unusual
about the three-tier system, about prohibiting direct
deliveries from out of state to avoid it, or about
allowing in-state retailers to deliver alcohol within the
State. Opening up the State to direct deliveries from
out-of-state retailers necessarily means opening it up
to alcohol that passes through out-of-state wholesalers
or for that matter no wholesaler at all. See Arnold’s
Wines, 571 F.3d at 185 n.3. That effectively eliminates
the role of Michigan’s wholesalers. If successful,
Lebamoff’s challenge would create a sizeable hole in
the three-tier system. Michigan imposes heavy taxes
on all alcohol products at the wholesale level. Mich.
Comp. Laws § 436.1233(1). And the State itself is the
wholesaler for all liquor products, prompting higher
prices than a free market would bear. Id. That leaves
too much room for out-of-state retailers to undercut
local prices and to escape the State’s interests in
limiting consumption.
There’s ample reason to think Indiana retailers
like Lebamoff would do just that. While Michigan and
Indiana both have three-tier systems, they regulate
them differently. Unlike Michigan, Indiana permits
wholesalers to sell to retailers below cost, with volume
discounts, on credit, and with no minimum prices. See
id. § 436.1609a(5); Mich. Admin. Code R. 436.1055.
Nor would it end there. Lebamoff itself identifies close
to 2,000 retailers who could use direct deliveries if

13a
allowed. That is just the beginning. Once out-of-state
delivery opens, the least regulated (and thus the
cheapest) alcohol will win. That’s good news for people
who like a drink or two. But it’s not great news for the
people responsible for dealing with those who have
trouble stopping. In the absence of delivery
restrictions, there is a “substantial” risk that
out-of-state alcohol will get “diver[ted] into the retail
market[,] ... disrupti[ng] the [alcohol] distribution
system” and increasing alcohol consumption. North
Dakota, 495 U.S. at 433, 110 S.Ct. 1986 (plurality
opinion).
The alert reader may wonder if Michigan can
respond to this problem by controlling prices set by
out-of-state wholesalers and producers. No, it may not.
The extraterritoriality doctrine, also rooted in the
dormant Commerce Clause, bars state laws that have
the “practical effect” of controlling commerce outside
their borders. Healy v. Beer Inst., 491 U.S. 324, 336,
109 S.Ct. 2491, 105 L.Ed.2d 275 (1989); see Am.
Beverage Ass’n v. Snyder, 735 F.3d 362, 377 (6th Cir.
2013) (Sutton, J., concurring). Although Michigan may
regulate the business relationship and prices between
in-state wholesalers and retailers, it may not do the
same for out-of-state wholesalers and retailers. See
Healy, 491 U.S. at 337–38, 109 S.Ct. 2491.
That Michigan permits direct deliveries by in-state
retailers does not alter this conclusion. These retailers
all live with the bitter and sweet of Michigan’s
three-tier system—the bitter of being able to buy only
from Michigan wholesalers (and the price and volume
regulations that go with it) and the sweet of being
subject only to intrastate competition. Permitting these
retailers to deliver directly to consumers is nothing

14a
new. Michigan has long allowed retailers to use
third-party delivery to serve customers who live in
areas “surrounded by water and inaccessible by motor
vehicle.” Mich. Comp. Laws § 436.1203(13); 2008 Mich.
Pub. Acts 474, § 203(12). More recently, Michigan has
allowed retailers to deliver alcohol using their own
employees. Mich. Comp. Laws § 436.1203(14). One
could imagine other examples—say, permitting
retailer’s employees to bring the customers’ goods to
their cars or permitting drive-through liquor stores.
New delivery options are simply new ways of allowing
the heavily regulated third tier to do business. Anyone
who wishes to join them can get a Michigan license and
face the regulations that come with it. Lebamoff seizes
the sweet and wants to take a pass on the bitter.
The text and history of the Twenty-first
Amendment support this conclusion. Recall that the
text grants the States authority over the “importation”
of alcohol into their borders. U.S. Const. amend. XXI,
§ 2. This suggests state power is “at its apex” when
regulating importation, as the challenged Michigan
statute does. See Tenn. Wine & Spirits, 139 S. Ct. at
2471. The historical backdrop confirms as much.
Section 2’s text tracks the pre-Prohibition
Webb-Kenyon Act, “suggest[ing] that § 2 was meant to
have a similar meaning.” Id. at 2467. The
Webb-Kenyon Act “fix[ed] [a] hole” in state regulatory
authority that permitted out-of-state producers to
evade state regulations by delivering directly to state
residents. Id. at 2466. Lebamoff’s lawsuit is nothing
less than an effort to re-create that hole. Allowing
States to “channel” alcohol sales through in-state
wholesalers is “precisely what § 2 is for.” Bridenbaugh, 227 F.3d at 854.

15a
C.
Lebamoff challenges this conclusion in several
ways, each unconvincing. It argues that ordinary
dormant Commerce Clause analysis applies (false) and
that the Twenty-first Amendment is not a complete
defense (true). What the Twenty-first Amendment
purports to give, it is true, the dormant Commerce
Clause sometimes takes away. To respect the States’
authority to regulate “importation” slights the dormant
Commerce Clause’s efforts to halt barriers to free
commerce. There is no way around the problem.
“[E]very statute limiting importation leaves intrastate
commerce unaffected. If that were the sort of
discrimination that lies outside state power, then § 2
would be a dead letter.” Id. at 853. That’s why a
“different” dormant Commerce Clause test applies to
alcohol regulations. Tenn. Wine & Spirits, 139 S. Ct. at
2474. The Twenty-first Amendment “gives the States
regulatory authority that they would not otherwise
enjoy.” Id.
Lebamoff tries to minimize the State’s interest in
preserving a three-tier system, criticizing the costs it
imposes. But Michigan could not maintain a three-tier
system, and the public-health interests the system
promotes, without barring direct deliveries from
outside its borders. No amount of additional money
through spending appropriations or “rais[ed] license
fees,” Appellee Br. 28, could change that reality.
Lebamoff is skeptical of other potential
justifications for Michigan’s law: preventing sales to
minors, facilitating tax collection, and ensuring safe
products. Granholm rejected many of these
justifications in the context of direct-delivery
restrictions, it is true. 544 U.S. at 491–92, 125 S.Ct.

16a
1885. There is room for skepticism, we agree, over
whether Michigan’s delivery restrictions prevent sales
to minors in any material way. Concurring Op. at
878–79. But even if Michigan could protect minors and
ensure retailer accountability in other ways, there is no
other way it could preserve the regulatory control
provided by the three-tier system.
Granholm’s holding does not change this calculus.
It concerned a discriminatory exception to a three-tier
system. Granholm, 544 U.S. at 466, 125 S.Ct. 1885.
In-state wineries could avoid in-state wholesalers and
retailers and thus deliver directly to consumers, while
out-of-state wineries could not. That was the “explicit
discrimination” in Granholm, not delivery privileges by
themselves. Id. at 467, 125 S.Ct. 1885. Lower courts
have characterized Granholm in exactly this way and
rejected challenges like Lebamoff’s. See, e.g., Arnold’s
Wines, 571 F.3d at 190–91 (upholding state law that
permitted in-state, but not out-of-state, retailers to
deliver alcohol to consumers’ homes); Steen, 612 F.3d
at 818–19 (same). There is no appellate decision to the
contrary.
Lebamoff suggests that a state senator’s statement
conveys a discriminatory motive. Here is the
statement: “[Michigan retailers] currently cannot
[deliver wine] legally. And they are under tremendous
disadvantage, competitive disadvantage, with
out-of-state entities that are doing it illegally right
now. So this is a bill to help out our constituents, our
local businesses to be more competitive in the
marketplace.” Dec. 8, 2016, MacGregor Statement on
S.B. 1088 at 40:50–41:16, https://www.house.mi.gov/
SharedVideo/PlayVideoArchive.html?video=COMM1
20816.mp4. As the senator said elsewhere, however,

17a
the amendment’s purpose was not to give Michigan
businesses an advantage but to “level[ ] the playing
field.” Id. at 40:15. Even if one legislator’s voice offered
a meaningful insight into a collective body’s objectives
(doubtful), the statement in context shows only the
legitimate goal of evening the playing field.
Nor does Michigan’s past treatment of direct
deliveries upset this conclusion. Before the 2017
amendment, Michigan permitted out-of-state retailers
to deliver alcohol using their own vehicles and
employees. 2008 Mich. Pub. Acts 474, § 203(11). Even
that narrow exception was adopted grudgingly.
Michigan originally had a scheme much like the
present one: prohibiting out-of-state deliveries and
permitting in-state retailers to make them in limited
circumstances. But a federal district court, purportedly
relying on Granholm, found that scheme violated the
dormant Commerce Clause. Siesta Vill. Mkt., LLC v.
Granholm, 596 F. Supp. 2d 1035, 1037–38 (E.D. Mich.
2008). Rather than test this conclusion on appeal,
Michigan amended the law, ending all direct deliveries
and permitting a generally-applicable
employee-delivery exception. 2008 Mich. Pub. Acts 474,
§ 203(11). About a decade later, concerned with
increasing problems related to cross-border deliveries
and reassured by a growing lower court consensus, see
Arnold’s Wines, Inc., 571 F.3d at 190–91; Steen, 612
F.3d at 818–19, Michigan enacted the 2017
amendment. There’s nothing wrong with that.
What of the consumer plaintiffs, the Michigan wine
purchasers who cannot buy the types of wine they want
without inconvenience? The record for one suggests
these concerns may be exaggerated. Wine wholesalers
have their own profit incentive to carry enough brands

18a
to meet consumer demand and answer requests for
more. And wine consumers have yet another avenue:
the more than 1,200 wineries excepted from the law as
long as they make no more than a minimal volume of
direct deliveries. Perhaps for these reasons, there are
over 44,000 brands of wine available in Michigan, the
vast majority of them from out-of-state producers. To
be sure, some brands are not available. But the extent
of the State’s responsibility for that gap is not clear.
Some winemakers may seek higher margins by selling
exclusively at “high-end” restaurants or at their own
vineyards, and others may lack the capacity to produce
enough wine for wide distribution. R. 34-3 at 3–5. As
Lebamoff’s expert admits, fewer than 50,000 of the
roughly 200,000 wines sold in the country are available
nationwide. That’s not Michigan’s fault.
Even so, it’s likely the case that some wine
producers do not sell to Michigan wholesalers due to
these regulatory costs. Some rare wines, for example,
apparently are available only through specialty
retailers located primarily in California, New York,
New Jersey, and Chicago. Concurring Op. at 877. But
some reduction in consumer choice, it seems to us,
flows ineluctably from a three-tier system. The purpose
of the system, for better or worse, is to make it harder
to sell alcohol by requiring it to pass through regulated
in-state wholesalers. Those middlemen unsurprisingly
impose added costs, sometimes choice-limiting costs.
Still, it’s worth noting that Michigan has loosened
some regulations to increase choice. That was the point
of allowing limited direct deliveries by out-of-state
wine producers. Perhaps more amendments are in
order. Broadening product options seems far afield
from the tied-saloon system that the three-tier system
was designed to replace. The internet has widened that

19a
gap. Today “[w]e live in a global economy and we shop
in virtual marketplaces for everything from luxuries to
necessities.” Id. at 878. But the Twenty-first
Amendment leaves these considerations to the people
of Michigan, not to federal judges.
D.
Also unavailing is Lebamoff’s claim that the law
violates the Privileges and Immunities Clause of
Article IV of the United States Constitution. “The
Citizens of each State,” the Clause says, “shall be
entitled to all Privileges and Immunities of Citizens in
the several States.” U.S. Const., art. IV, § 2, cl. 1. The
point of the Clause is to “plac[e] the citizens of each
State upon the same footing with citizens of other
States, so far as the advantages resulting from
citizenship in those States are concerned.” McBurney
v. Young, 569 U.S. 221, 228, 133 S.Ct. 1709, 185
L.Ed.2d 758 (2013) (quotation omitted).
Long ago, the Court rejected the idea that the right
to sell alcohol was a privilege or immunity under the
similarly-worded Fourteenth Amendment. U.S. Const.
amend. XIV, § 1, cl. 2. “There is no inherent right in a
citizen to thus sell intoxicating liquors by retail. It is
not a privilege of a citizen of the state or of a citizen of
the United States.” Crowley, 137 U.S. at 91, 11 S.Ct.
13; see Mugler v. Kansas, 123 U.S. 623, 657, 675, 8
S.Ct. 273, 31 L.Ed. 205 (1887); Bartemeyer v. Iowa, 85
U.S. (18 Wall.) 129, 132, 135, 21 L.Ed. 929 (1874). The
words of the Twenty-first Amendment, ratified long
after 1868, show that a State may prohibit sales of
alcohol if it wishes.
On top of that, the Clause concerns discrimination
based on state citizenship or residency, see McBurney,

20a
569 U.S. at 228, 133 S.Ct. 1709, and Michigan’s law
does not discriminate on that basis. Residents *876 of
Indiana are on “the same footing” as residents of
Michigan. Id. To sell alcohol in Michigan, they simply
have to play by the Michigan rules—just as they have
to do in Indiana. So far, over 1,800 non-residents have
gotten Michigan retail licenses. Lebamoff can do the
same. There is no residency requirement, only the
requirement that it set up a store within the State—a
physical presence requirement that the U.S. Supreme
Court and our court permit. See Tenn. Wine & Spirits,
139 S. Ct. at 2475; Byrd, 883 F.3d at 622–623 & n.8.
Lebamoff offers no good reason to depart from
these principles or to treat this claim in a different way
from the dormant Commerce Clause claim. To its
credit, Lebamoff admits that “[n]o prior case in this or
any other circuit” has found a state regulation of
alcohol violated the Privileges and Immunities Clause.
Appellee Br. 54. We see no good reason to be the first.
III.
Even if the district court had been right in deciding
that the law violated the dormant Commerce Clause,
it bears adding, the court chose the wrong remedy.
Rather than altering Michigan’s alcohol distribution
system by extending delivery rights to out-of-state
retailers, it should have returned things to the
pre-2017 status quo.
At stake was whether to invalidate a new law or
extend the prior law’s reach. In answering that
question, we ask what the legislature would have
preferred had it known of the constitutional problem,
see Murphy v. NCAA, ––– U.S. ––––, 138 S. Ct. 1461,
1482, 200 L.Ed.2d 854 (2018), doing our best to “limit

21a
the solution to the problem,” Ayotte v. Planned
Parenthood of N. New Eng., 546 U.S. 320, 328–29, 126
S.Ct. 961, 163 L.Ed.2d 812 (2006). The imperative is
not to “rewrite a statute and give it an effect altogether
different from that sought by the measure viewed as a
whole.” Murphy, 138 S. Ct. at 1482 (quotation omitted).
Look no further than the text of this law for
guidance. “If any provision of this act is found to be
unconstitutional,” it says, “the offending provision
shall be severed and shall not affect the remaining
portions of the act.” Mich. Comp. Laws § 436.1925. The
2017 amendment created the alleged discrimination by
granting delivery privileges only to in-state retailers.
The severability clause in no uncertain terms says that
we should invalidate that provision and leave the rest
of the statute—and the rest of the three-tier
system—intact.
Another clue points in the same direction. A
statutory purpose of the provision at issue, §436.1203,
is to “maintain strong, stable, and effective regulation
by having beer and wine sold by retailers consumed in
this state [ ] pass[ ] through the 3-tier distribution
system established under this act.” Id. § 436.1203
(2)(b). How could obliterating that system be consistent with this provision? Any other approach amounts
to wholesale surgery, not statutory interpretation.
The district court’s solution was to strike the
amendment and parts of the original statute. The court
held the 2017 amendment unconstitutional “insofar as”
it precluded direct delivery “in conjunction with [Mich.
Comp. Laws] Section 436.1607.” R. 43 at 20. Section
1607 provides that only in-state retailers can get
delivery licenses, and it was not part of the 2017
amendment. It was enacted over a decade earlier. See

22a
2008 Mich. Pub. Acts 218, § 607(1). The court had no
basis for touching § 1607 in view of the severability
clause.
Some cases, it is true, suggest courts may remedy
discrimination by extending benefits rather than
retracting them. See, e.g., Heckler v. Mathews, 465 U.S.
728, 733, 104 S.Ct. 1387, 79 L.Ed.2d 646 (1984);
Cherry Hill Vineyards, LLC v. Lilly, 553 F.3d 423, 435
(6th Cir. 2008). But that is a rule of thumb for
approximating the “touchstone” of the severability
question: legislative intent as captured by the words of
the statute. Ayotte, 546 U.S. at 330, 126 S.Ct. 961.
Today’s severability clause clearly conveys the
Michigan legislature’s intent, and it distinguishes our
case from the one on which Lebamoff most heavily
leans: Cherry Hill, 553 F.3d at 435. Another of
Lebamoff’s supposedly favorable cases notes the
imperative of following “the intent of the legislature”
by “consider[ing] the degree of potential disruption of
the statutory scheme that would occur by extension as
opposed to abrogation.”Heckler, 465 U.S. at 739 n.5,
104 S.Ct. 1387 (quotation omitted). The district court’s
two-paragraph analysis on this score reveals no
consideration or appreciation of that disruption.
We reverse and remand for proceedings consistent
with this opinion.
McKEAGUE, Circuit Judge, concurring.
CONCURRENCE
I ultimately agree that Michigan has presented
enough evidence, which the plaintiffs have not
sufficiently refuted, to show its in-state retailer
requirement serves the public health. Tennessee Wine
and Spirits Retailers Ass’n v. Thomas, ––– U.S. ––––,

23a
139 S. Ct. 2449, 2474, 204 L.Ed.2d 801 (2019).
However, what I believe is the crux of this case is
the online shipping component. That Michigan
prohibits out-of-state retailers from selling wine online
and shipping directly to consumers—but permits
wineries and in-state retailers to do so—adds two
distinct wrinkles into an otherwise protected three-tier
system. First, it asks us to conduct a reexamination of
regulations that impede internet commerce generally,
given the “ ‘far-reaching systemic and structural
changes in the economy’ and ‘many other societal
dimensions’ caused by the Cyber Age.” South Dakota v.
Wayfair, Inc., ––– U.S. ––––, 138 S. Ct. 2080, 2097, 201
L.Ed.2d 403 (2018) (quoting Direct Mktg. Ass’n v.
Brohl, 575 U.S. 1, 135 S. Ct. 1124, 1135, 191 L.Ed.2d
97 (2015) (Kennedy, J., concurring)). Second, it
weakens the public health justifications—thus
strengthening the dormant Commerce Clause
challenge in this case—but not enough to change the
result.
Let’s look at it from the perspective of a consumer.
The Michigan consumers in this appeal all have
varying reasons for buying wine online. Some purchase
wine online due to time restraints. Others purchase
wine online because the wine they desire is available
only online. This is especially true when it comes to
imported wine. For example, from 2012 to 2016,
511,437 different wines were approved for sale in the
United States. Of those, 65% were of imported origin.
And while consumers in most states, including
Michigan, may purchase wine directly from wineries
across the country, imported wine may only be
purchased from retailers within their state and may
not be shipped directly from the producer located out of

24a
the country or from retailers located outside the state
of Michigan. Unsurprisingly, a number of specialty
wines are housed only at specialty retailers located
primarily in California, New York, New Jersey, and
Chicago. So, as evidenced, there’s a market for buying
wine online, especially from retailers.
But Michigan allows only in-state retailers access
to this online market. Only in-state retailers that hold
a specially designated merchant license may ship wine
directly to consumers. Mich. Comp. Laws §
436.1203(3), (15).
A consumer looking to buy wine for a special
occasion can go online, research different varieties of
wine, read reviews from aficionados, and select a bottle
or two for purchase, only to be told at checkout: “Sorry,
you live in Michigan.” What a frustration that must be
considering this is how we all buy things nowadays.
We live in a global economy and we shop in virtual
marketplaces for everything from luxuries to
necessities. And we now rely even more on online
shopping in the recent pandemic.
Obviously, this case involves wine and therefore
the Twenty First Amendment complicates things. But
does that mean a state’s regulation of virtual
marketplaces for wine should be seen as simply an
extension of its existing three-tier scheme, or as an
exception to the scheme warranting judicial
rethinking? In some ways, as the lead opinion notes,
in-state online sales are analogous to brick-and-mortar
wine merchants carrying cases of wine to customers’
cars. See also Wine Country Gift Baskets.com v. Steen,
612 F.3d 809, 820 (5th Cir. 2010) (viewing “local
deliveries as a constitutionally benign incident of an
acceptable three-tier system”). But that analogy loses

25a
force when viewed in context of the ubiquity of online
sales. Michigan’s direct retailer-to-consumer shipping
law isn’t just a “local delivery.” It allows for wide range
shipping, even through use of a simple “mobile
application.” Mich. Comp. Laws § 436.1203(15). It’s a
whole new market; a market that early twentieth
century state legislatures didn’t anticipate when
crafting the three-tier systems the Supreme Court has
since approved. So I’m not so sure that the in-state
retailer requirement is just a coda to Michigan’s
three-tier regulations. A state that opens up direct
online shipping to consumers presents the “changing
economic and social” circumstances that may call for a
different balance between the dormant Commerce
Clause and the Twenty First Amendment. Steen, 612
F.3d at 819 (citing Arnold’s Wines, Inc. v. Boyle, 571
F.3d 185, 198–201 (2d Cir. 2009) (Calabresi, J.,
concurring)). But until a different balance is struck, we
are bound by the Supreme Court’s protection of a
traditional three-tier system.
And with the existing balance now, Michigan’s
position prevails. Michigan’s amendment permitting
only in-state retailers to ship directly to consumers
must have a public health justification on its own.
Because Michigan chose to allow in-state retailers to
ship wine directly to consumers, it “must do so on
evenhanded terms.” Granholm, 544 U.S. at 493, 125
S.Ct. 1885. If not evenhanded, Michigan must present
sufficient evidence to show a public health justification.
Id.; Tennessee Wine, 139 S. Ct. at 2474.
While the online shipping component of Michigan’s
regulations weakens its public health rationales,
Michigan can still show that the in-state retailer
requirement protects public health. But to their credit,
the plaintiffs offer persuasive counterarguments.

26a
Start with the flaws in Michigan’s public health
rationales. Take for example Michigan’s argument that
the in-state requirement allows it to monitor the sale of
alcohol to underage individuals. Michigan argues that
in the five years before the conclusion of discovery in
this case, there had been 3,125 violations for sales to
minors uncovered by sting operations involving a minor
decoy. Opening up online sales to out-of-state retailers,
the argument goes, would make a bad situation worse.
But the fact that in-state retailers can sell online
cuts against this rationale. If Michigan thinks there is
such a risk of underage sales in the state, why expand
that risk by allowing online sales? True, the common
carrier delivering alcohol to the consumer’s door must
be licensed by Michigan and check the consumer’s
identification and age at the time of delivery. Mich.
Comp. Laws § 436.1203(3), (15). For this to happen,
though, it’s not necessary that the retailer be in-state.
Michigan has already proven that. Out-of-state
wineries can ship directly to consumers, and Michigan
requires consumer identification and age verification.
Id. § 436.1203(4). So Michigan’s shot itself in the foot.
Its own evidence tends to show “nondiscriminatory
alternatives” could sufficiently further its interests.
Tennessee Wine, 139 S. Ct. at 2474.
However, in the end, Michigan prevails in its
justifications. The tricky part is that Michigan can
largely rely on what has already been found to
inherently protect public health. For example,
requiring retailers to be in-state to sell online allows
Michigan to “monitor the stores’ operations through
on-site inspections.” Tennessee Wine, 139 S. Ct. at
2475. For retailers that don’t comply with the law, this
allows Michigan to revoke licenses (and even recall all
products), and this has already been found to “provide[

27a
] strong incentives not to sell alcohol in a way that
threatens public health or safety.” Id. (citing
Granholm, 544 U.S. at 490, 125 S.Ct. 1885) (internal
quotation marks omitted). In 2016, Michigan
conducted 18,039 on-site physical inspections and
related contacts at retail establishments for licensing
and enforcement purposes. And these inspections
“routinely uncover evidence of violations of the Code
and administrative rules.” Moreover, whether online
sales are an extension to traditional three-tier systems
or not (which, again, I question), there are the other
baked-in public health justifications that flow from
such systems, like promoting temperance. Bacchus
Imports, Ltd. v. Dias, 468 U.S. 263, 276, 104 S.Ct.
3049, 82 L.Ed.2d 200 (1984). The plaintiffs here have
not produced sufficient countervailing evidence
showing that these public health concerns are “mere
speculation” or “unsupported assertions,” or that the
“predominant effect” of the in-state retailer
requirement is not the protection of public health.
Tennessee Wine, 139 S. Ct. at 2474.
With these reservations, I concur.

28a
APPENDIX B. Opinion of the U. S. District Court
for the Eastern District of Michigan [Filed Sep.28,
2018].
No. 2:17-cv-10191
Lebamoff Enterprises, Inc., et al.,
Plaintiffs,
v.
Snyder, et al.,
Defendants,
Opinion and Order Denying Defendants' Motions for
Summary Judgment [33], Denying Intervenor's
Motion for Summary Judgment [34], and Granting
Plaintiffs' Motion for Summary Judgment [31]
Arthur J. Tarnow, Senior United States District Judge
Plaintiffs—individual wine consumers (Jack
Strike, Jack Schulz, and Richard Donovan), an
individual wine merchant (Joseph Doust), and an
Indiana corporation that operates fifteen alcohol retail
stores in Indiana (Lebamoff Enterprises, Inc.)—filed
this 42 U.S.C. § 1983 action to challenge the
constitutionality of Michigan Senate Bill 1088, 2016
Mich. Pub. Laws Act 520 (“2016 PA 520”). They claim
that Defendants—Governor of Michigan Rick Snyder,
Attorney General William Schuette, and Chairperson
of the Michigan Liquor Control Commission (“MLCC”)
Andrew J. Deloney—have violated their rights under
the Commerce Clause and the Article IV Privileges
and Immunities Clause of the United States
Constitution.

Plaintiffs ask the Court to declare 2016 PA 520

29a
unconstitutional to the extent that it amends M.C.L §
436.1203 to prohibit non-Michigan wine retailers from
1) selling and distributing wine directly to Michigan
consumers, and 2) obtaining licenses and engaging in
their occupations in Michigan. They seek an injunction
prohibiting Defendants from enforcing 2016 PA 520
and requiring them to allow out-of-state wine retailers
to distribute wine directly to consumers in Michigan
FACTUAL BACKGROUND
The laws governing wine retailing in Michigan
were amended by 2016 PA 520 on March 29, 2017. The
old laws allowed licensed Michigan retailers, and
retailers from other states with similar licenses, to ship
wine to Michigan consumers only by using their own
employees and not by using a third party-delivery
service. M.C.L.A. 436.1203, effective from March 25,
2014 to March 28, 2017. The new laws permit certain
Michigan wine retailers to sell, ship, and deliver
alcoholic beverages directly to Michigan customers by
using a licensed third party carrier, but they prohibit
out-of-state retailers from shipping to Michigan
customers by any means. M.C.L.A. 436.1203. The law
thus expanded the shipping rights of Michigan
retailers while eliminating the shipping rights of
out-of-state retailers.
The MLCC, by way of the Michigan Liquor Control
Code, controls and regulates the sale and importation
of alcohol through a three-tier distribution system of
suppliers, wholesalers, and retailers. Licensed
suppliers sell beer, wine, and mixed spirits to licensed
wholesalers, who in turn sell these products to licensed
retailers. Licensed retailers may only purchase wine
from licensed Michigan wholesalers. Licensed retailers
then sell alcohol to consumers. The MLCC exercises its

30a
powers over the three tiers of distribution to regulate
the behavior of market participants. For instance,
retailers are forbidden to negotiate volume discounts
with wholesalers or purchases on credit. Mich. Comp.
L. § 436.1609a(5); Mich. Admin. Code, R, 436.1625(5),
436.1726(4). Michigan also requires wholesalers to
“post-and-hold” prices to police against industry
favoritism or covert volume discounts. Mich. Admin.
Code, R. 436.1726.
PLAINTIFFS' LAWSUIT
Plaintiffs challenge the new version of M.C.L. §
436.1203(2), as enacted on January 5, 2017. The law
permits retailers who obtain specially designated
merchant (“SDM”) licenses to deliver wine to Michigan
consumers using a common carrier, their own vehicle,
or a third-party facilitator. M.C.L. §§ 436.1203(3), (12),
and (15). These provisions do not apply to Lebamoff
Enterprises, Inc., however, because as an “outstate
seller of wine,” it is ineligible to become “licensed as a
specially designated merchant.” M.C.L. § 436.1607(1).
Plaintiff Lebamoff Enterprises, Inc. (“Lebamoff”)
operates fifteen retail wine and liquor stores—called
Cap n' Cork—in the Fort Wayne, Indiana area. Many
of Lebamoff's customers live in cities in southwest
Michigan and have requested that Lebamoff ship wine
to them. (Pls.' Ex. 2 at ¶ 2). Lebamoff is unable to do so
however, despite being fully equipped to ship and
deliver wine. (Id. at ¶ 6). Plaintiff Joseph Doust is a
wine merchant and one of the co-owners of Lebamoff
Enterprises. Plaintiffs Richard Donovan, Jack Strike,
and Jack Schulz are Michigan wine consumers who
wish to be able to order wine from out-of-state
retailers. They prefer to order wine on the internet,
and they allege that many of their desired vintages are

31a
not available in the Michigan market. (Pls. Ex. 5, 6, &
7).
PROCEDURAL HISTORY
Plaintiffs filed a Complaint [1] on January 20, 2017
and an Amended Complaint [5] on February 6, 2017.
On March 17, 2017, the Michigan Beer & Wine
Wholesalers Association moved, unopposed, to
intervene as a defendant. The Court entered an Order
permitting intervention [13] on April 6, 2017.
Plaintiffs filed a Motion for Summary Judgment
[31] on February 28, 2018. Intervenors and the original
Defendants filed Motions for Summary Judgment [33,
34] on April 2, 2018. The motions have been fully
briefed, and a hearing was held before the Court on
September 6, 2018.
LEGAL STANDARD
Summary judgment is appropriate “if the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a
judgment as a matter of law.” Fed. R. Civ. P. 56(c).
Defendants bear the burden of establishing that there
are no genuine issues of material fact, which may be
accomplished by demonstrating that Plaintiffs lack
evidence to support an essential element of their case.
Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S.Ct.
2548, 91 L.Ed.2d 265 (1986). Plaintiffs cannot rest on
the pleadings and must show more than “some
metaphysical doubt as to the material facts.”
Matsushita Elec. Indus. Co., Ltd., 475 U.S. at 586-87,
106 S.Ct. 1348. Plaintiffs must “go beyond the

32a
pleadings and by ... affidavits, or by the ‘depositions,
answers to interrogatories, and admissions on file,’
designate ‘specific facts showing that there is a genuine
issue for trial.’ ” Celotex Corp., 477 U.S. at 324, 106
S.Ct. 2548 (quoting Fed. R. Civ. P. 56(e) ); see also
United States v. WRW Corp., 986 F.2d 138, 143 (6th
Cir. 1993).
ANALYSIS
A.
The Commerce Clause gives Congress the power
“[t]o regulate Commerce with foreign Nations, and
among the several States.” U.S. Const., art. I, § 8, cl. 3.
The United States Supreme Court has “interpreted the
Commerce Clause to invalidate local laws that impose
commercial barriers or discriminate against an article
of commerce by reason of its origin or destination out
of state.” C & A Carbone, Inc., v. Town of Clarkstown,
N.Y., 511 U.S. 383, 390, 114 S.Ct. 1677, 128 L.Ed.2d
399 (1994). Relatedly, the Commerce Clause
“encompasses an implicit or ‘dormant’ limitation on the
authority of the States to enact legislation affecting
interstate commerce.” Healy v. The Beer Institute, Inc.,
491 U.S. 324, 326 n.1, 109 S.Ct. 2491, 105 L.Ed.2d 275
(1989). The dormant Commerce Clause prevents states
from “unjustifiably [ ] discriminat[ing] against or
burden[ing] the interstate flow of articles of
commerce.” Or. Waste Systems, Inc. v. Dep't of Env't
Quality of Or., 511 U.S. 93, 98, 114 S.Ct. 1345, 128
L.Ed.2d 13 (1994).
The dormant Commerce Clause inquiry is two-fold.
First, the Court must determine whether the statute at
issue “directly regulates or discriminates against
interstate commerce, or [whether] its effect is to favor

33a
in-state economic interests over out-of-state interests.”
Dep't of Revenue of Ky. v. Davis, 553 U.S. 328, 338, 128
S.Ct. 1801, 170 L.Ed.2d 685 (2008); Int'l Dairy Foods
Ass'n v. Boggs, 622 F.3d 628, 644 (6th Cir. 2010).
Plaintiffs bear the burden of showing that Michigan's
law is discriminatory. Id.
If Plaintiffs prove that the law discriminates
against interstate commerce, the law “will survive only
if it advances a legitimate local purpose that cannot be
adequately served by reasonable alternatives.” Dep't of
Revenue of Ky., 553 U.S. at 338, 128 S.Ct. 1801; see
also Or. Waste Systems, 511 U.S. at 100, 114 S.Ct.
1345. If the defendant fails to meet its burden at this
stage of the inquiry, the law is upheld “unless the
burden it imposes upon interstate commerce is clearly
excessive in relation to the putative local benefits.”
Int'l Dairy Foods Ass'n, 622 F.3d at 644 (citations and
quotation marks omitted); see also Tenn. Scrap
Recyclers Ass'n v. Bredesen, 556 F.3d 442, 449 (6th Cir.
2009) (“Protectionist laws are generally struck down
without further inquiry, because absent an
extraordinary showing the burden they impose on
interstate commerce will always outweigh their local
benefits.”) (Citations omitted).
B.
Plaintiffs have met their burden of proving that the
regulatory system created by 2016 PA 520
discriminates against interstate Commerce. The new
statute permits only those who “hold a specially
designated merchant license located in this state” to
use a common carrier to ship to consumers in
Michigan. 2016 PA 520 § 203(3). Though Defendants
argue that Plaintiffs have every right to open a retail
location in Michigan and ship from that store while

34a
maintaining their Indiana residency, courts have
“viewed with particular suspicion state statutes
requiring business operations to be performed in the
home State that could more efficiently be performed
elsewhere.” Pike v. Bruce Church, Inc., 397 U.S. 137,
145, 90 S.Ct. 844, 25 L.Ed.2d 174 (1970). In 2005, the
Supreme Court ruled that Michigan and New York
laws permitting direct shipment of wine from in-state
wineries, but forbidding the same from out-of-state
wineries, violated the Commerce Clause. Granholm v.
Heald, 544 U.S. 460, 125 S.Ct. 1885, 161 L.Ed.2d 796
(2005). Michigan and New York both argued in
Granholm that excluding out-of-state wineries from
selling directly to their consumers unless they had a
physical presence in the state was nondiscriminatory
because wineries need only open up an in-state
storefront. The Court rejected the states' argument,
referencing the “prohibitive” costs of establishing
brick-and-mortar distribution centers in states that
require retailers to do so. Id. at 475, 125 S.Ct. 1885.
Defendants argue that a ruling for the Plaintiffs
would allow Lebamoff to do what no Michigan retailer
may do: ship wine to Michigan consumers that has not
passed through the Michigan three-tier system. The
dormant Commerce Clause is enforced against states,
however, and the constitutionality of state action is of
primary concern in this case. The governing question,
therefore, is whether Michigan is permitted to enforce
a statute that explicitly denies out-of-state retailers a
privilege available to their in-state competitors. The
answer at this stage must be no, for “[s]tate laws that
discriminate against interstate commerce face a
'virtually per se rule of invalidity.” Granholm, 544 U.S.
at 476, 125 S.Ct. 1885 (quoting Phila. v. New Jersey,
437 U.S. 617, 624, 98 S.Ct. 2531, 57 L.Ed.2d 475 (1978)

35a
).
Michigan departed from a hermetically-sealed
three-tier system when it chose to permit its wine
retailers to join the digital marketplace and engage in
direct shipping to customers. The State created a
market for Michigan consumers that implicated
interstate commerce in a manner above-and-beyond
that of a traditional three-tier system. These same laws
then closed off this Michigan-sized portion of American
interstate commerce to out-of-state competition. State
laws that so favor in-state business presumptively
violate the dormant Commerce Clause because they
undermine “strong federal interests in preventing
economic Balkanization.” Bacchus Imps. v. Dias, 468
U.S. 263, 276, 104 S.Ct. 3049, 82 L.Ed.2d 200 (1984)
(finding that a tax exemption for an indigenously
produced Hawaiian brandy, Okolehao, skewed
competition within the liquor market and therefore was
subject to the Commerce Clause).
C.
Because this case concerns the regulation of
alcohol, the Court must undertake an additional step in
its analysis before determining whether Defendants
meet their burden on the second prong of the
Commerce Clause test. The Court must determine
“whether the interests implicated by a state regulation
are so closely related to the powers reserved by the
Twenty-first Amendment that the regulation may
prevail, notwithstanding that its requirements directly
conflict with express federal policies.” Bacchus Imports,
Ltd. v. Dias, 468 U.S. 263, 276, 104 S.Ct. 3049, 82
L.Ed.2d 200 (1984). Section Two of the Twenty-first
Amendment provides, “The transportation or
importation into any State, Territory, or possession of

36a
the United States for delivery or use therein of
intoxicating liquors, in violation of the laws thereof, is
hereby prohibited.” U.S. Const. amend. XXI, § 2.
Courts have interpreted the Amendment “to allow
states to maintain an effective and uniform system for
controlling liquor by regulating its transportation,
importation, and use.” Granholm, 544 U.S. at 484, 125
S.Ct. 1885; see also Brown-Forman Distillers Corp. v.
N.Y. State Liquor Auth., 476 U.S. 573, 106 S.Ct. 2080,
90 L.Ed.2d 552 (1986) (“[T]he Twenty-first Amendment
and the Commerce Clause 'each must be considered in
light of the other and in the context of the issues and
interests at stake in any concrete case.” (quoting
Hostetter v. Idlewild Bon Voyage Liquor Corp., 377 U.S.
324, 332, 84 S.Ct. 1293, 12 L.Ed.2d 350 (1964) ). The
Granholm Court rejected the two states' contention
that Section Two of the Twenty-first Amendment
immunized laws that discriminated against
out-of-state wineries. “The Amendment did not give
States the authority to pass non-uniform laws in order
to discriminate against out-of-state goods.” Granholm,
544 U.S. at 484-85, 125 S.Ct. 1885. The Court went on
to reiterate its holdings in Bacchus, Brown-Forman,
and Healy that “state regulation of alcohol is limited by
the nondiscrimination principle of the Commerce
Clause.” Id. at 487, 125 S.Ct. 1885.
The question here is whether discrimination
against interstate commerce on the retail tier—as
opposed to the producer tier at issue in Granholm—is
forbidden by the Commerce Clause or sanctioned by
the Twenty-first Amendment.
Courts have answered this question in different
ways. In Siesta Village Market, LLC v. Granholm, 596
F.Supp.2d 1035 (E.D. Mich. 2008), this court declined

37a
to distinguish between retailers and producers when
determining the constitutionality of a very similar
Michigan statute, and ultimately enjoined the
enforcement of Michigan laws that discriminated
against out-of-state wine shippers. Following this
decision, the Michigan legislature repealed the
problematic provisions of the statute and the Court
vacated the decision as moot.
By contrast, the Second Circuit declined to
interpret Granholm as authorizing a Commerce Clause
challenge to a New York state wine retail shipment law
that privileged in-state retailers. Arnold's Wines, Inc.
v. Boyle, 571 F.3d 185 (2nd Cir. 2009). The Eighth
Circuit went further and held that residency
requirements for wholesalers are permissible under the
Commerce Clause. S. Wine and Spirits of Am., Inc. v.
Div. of Alcohol & Tobacco Control, 731 F.3d 799 (8th
Cir. 2013). Implicit to both the Second and Eighth
Circuit's decisions was their refusal to extend the logic
of Granholm from the producer tier to the retailer tier.
This bright-line distinction between producer and
retailer tiers is incompatible with Sixth Circuit
precedent. In Byrd, the Sixth Circuit found that
Tennessee residency requirements for the owners of
retail businesses applying for alcoholic beverage
licenses did in fact violate the Commerce Clause, and it
embraced the Fifth Circuit's interpretation of
Granholm as “reaffirming the applicability of the
Commerce Clause to state alcohol regulations, but to a
lesser extent when the regulations concern the retailer
or wholesaler tier as distinguished from the producer
tier, of the three-tier distribution system.” Byrd v. Tenn
Wine and Spirits Retailers Ass'c, 883 F.3d 608 (6th Cir.
2018), cert. granted, (U.S. Sept. 27, 2018) (No. 18-96),
(quoting Cooper v. Texas Alcoholic Beverage Comm'n,

38a
820 F.3d 730, 743 (5th Cir. 2016) ).
The Sixth Circuit held that whether the
Twenty-first Amendment saves a dormant commerce
clause violation will depend on “whether the interests
implicated by a state regulation are so closely related
to the powers reserved by the Twenty-first Amendment
that the regulation may prevail, notwithstanding that
its requirements directly conflict with express federal
policies.” Id. at 621-22. Put another way, “[d]istinctions
between in-state and out-of-state retailers and
wholesalers are permissible only if they are an
inherent aspect of the three-tier system.” Id. This is
the test the Court applies to Michigan's retail wine
shipment laws.
Michigan fails this test because it cannot
demonstrate that permitting in-state retailers to ship
directly to consumers while denying out-of-state
retailers the right to do the same is inherent to its
three-tier system. Michigan retains its Twenty-first
Amendment powers to maintain a closed three tier
system, just as it remained free after Granholm to
prohibit wineries from shipping directly to consumers.
But when it starts carving exceptions out of that
system, it must do so without resorting to economic
protectionism. The State's Twenty-first Amendment
powers do not extend so far as to spare protectionist
laws from the Commerce Clause. See Granholm, 544
U.S. at 487, 125 S.Ct. 1885 (2005) (holding that
“regulation of alcohol is limited by the
nondiscrimination principle of the Commerce Clause.”).
A law favoring local businesses that strays too far from
the protection of the Twenty-first Amendment must
withstand a Commerce Clause challenge on its own
merits.

39a
D.
Defendants therefore must defend their regulatory
regime on the second prong of the dormant Commerce
Clause analysis. A facially discriminatory law will only
be upheld if it “advances a legitimate local purpose that
cannot be adequately served by reasonable
alternatives.” Dep't. of Revenue of Ky., 553 U.S. at 328,
128 S.Ct. 1801. Given that simply outlawing retail wine
shipping without providing an exception for SDMs
would likely accomplish the following four objectives,
and that the State has operated a non-discriminatory
retail regime in the past, Defendants seem foreclosed
from meeting their burden.
Nevertheless, Defendants argue that four
legitimate local purposes will save wine
retailer-delivery discrimination from a Commerce
Clause challenge. The Court considers each in turn.
1. Administrative Overburdening
The State argues that Michigan cannot feasibly
regulate a nationwide market of wine retailers. The
MLCC opines that 338,000 retailers nationwide could
be eligible for licenses and references the heavy burden
that licensing and regulating out-of-state wine retailers
will entail. (Defs.' Ex. B, at ¶ 13). Plaintiffs argue that
only a tiny fraction of these retailers will in fact apply
for a license, as was the case in New Hampshire, and
that the costs of running a shipping business will
prevent the market from becoming saturated with
out-of-state retailers. (Pls.' Ex. 14 & 15). It is
impossible to know just how many applicants an
expanded SDM license eligibility would create, but the
State has not demonstrated that no reasonable
alternatives exist to prevent administrative overflow.
The MLCC could for instance tighten regulations with

40a
other non-discriminatory requirements or increase its
application fees. The State cannot justify restricting
market access to local businesses merely by pleading
regulatory frugality and pointing out that Michigan has
fewer potential licensees than the whole country.
2. Youth Access
The State argues that licensing out-of-state
retailers to deliver wine would substantially increase
the risk of minors obtaining alcohol. Defendants
provide evidence that out-of-state direct shippers have
sold more wine to minors during investigatory control
sales. (Defs.' Ex. D at ¶ 18; Ex. C at ¶ 14). The
Granholm Court already considered and rejected the
justification of preventing youth access for winery
direct shipments, finding that the states needed not
only to show that a problem existed but also that
alternative mechanisms could not solve that problem.
Granholm, 544 U.S. at 489-91, 125 S.Ct. 1885 (finding
that online wine shipping is an unattractive means for
minors to procure alcohol, and noting less restrictive
alternatives to foreclosing youth access to wine).
Preventing underage wine sales fails as a
justification because the point-of-enforcement is on the
delivery end. Michigan law provides that wine must be
shipped in a specially marked package, and that only
someone at least 21 years of age can accept delivery.
M.L.C. 436.1203(15). Third party shippers must be
approved by the MLCC and must keep records of their
shipments for inspection. M.L.C. 436.1203(20)-(21).
Michigan does not advance any theory on how its wine
retailing websites better screen out minors than their
out-of-state rivals, and in fact both websites would be
equally accessible to Michigan officials seeking to
investigate underage sales, as would both company's

41a
deliveries (presumably accomplished by the same
common carrier). Further, as Plaintiffs argue, there are
many forms of leverage the state can hold over
out-of-state retailers short of the threat of property
abatement. Bonds can be required from retailers where
the MLCC sees fit, and, along with the SDM license
itself, subject to forfeiture where necessary. The
Granholm Court found that Michigan failed in 2005 to
make the “clearest showing” that was necessary to
justify discrimination. Granholm, 544 U.S. at 489-91,
125 S.Ct. 1885 (quoting C & A Carbone, Inc., 511 U.S.
at 393, 114 S.Ct. 1677). The state has not adequately
demonstrated that replacing wineries with wine
retailers has made a significant enough difference.
3. Tax Collection
The State argues that collecting Michigan taxes
from out-of-state retailers would be unworkable.
Defendants base this conclusion off the MLCC's
experience taxing out-of-state wineries. Direct shipper
licensees pay the excise tax directly to the MLCC, but
the Commission believes itself to be unable to collect
the full taxes owed on such transactions. (Defs.' Ex. E).
Defendants advance evidence that out-of-state wineries
have disproportionately failed to timely file required
tax documentation and have routinely underpaid
taxes. Id. The fact that much of Michigan's evidence
comes from winery direct shipping suggests that the
State's problem lies with Granholm itself, a problem
that this Court is not in a position to remedy.
Indeed, the Court in Granholm found that there
were reasonable alternative methods available to
collect taxes without burdening interstate commerce.
Michigan can simply require retailers to post a bond
for taxes, as it already does in certain circumstances,

42a
and condition continued licensing on proper payment
of taxes. Granholm, 544 U.S. at 491, 125 S.Ct. 1885 (“If
licensing and self-reporting provide adequate
safeguards for wine distribution through the three-tier
system, there is no reason to believe that they will not
suffice for direct shipments.”); see also Mich. Comp. L.
436.1801 on current wine retailing bond requirements.
Indeed, tax collection is substantially less of a
justification now than it was in 2005, when the nexus
requirements of Quill Corp v. North Dakota, 504 U.S.
298, 112 S.Ct. 1904, 119 L.Ed.2d 91 (1992) were still in
effect. South Dakota v. Wayfair, ––– U.S. ––––, 138 S.
Ct. 2080, 201 L.Ed.2d 403 (2018) overruled Quill and
allowed states to collect taxes from out-of-state
retailers delivering goods to their citizens “as if the
seller had a physical presence in the states.” Id.
Michigan has every right to demand out-of-state sellers
collect taxes from its Michigan customers and remit
those taxes to the state.
4. Product Safety
Michigan argues that permitting out-of-state
retailer delivery would defeat the MLCC's product
safety function. The only U.S.-specific research the
defendant cited for this argument was an article that
concluded that fake alcohol is not a large problem in
the U.S. precisely because of the efficacy of state and
federal regulation. See Robert M. Tobiassen, The Fake
Alcohol Situation in the United States: The Impact of
Culture, Market Economics, and the Current
Regulatory System, Center for Alcohol Policy (2014) at
https://www.centerforalcoholpolicy.org/
wp-content/uploads/2015/04/The_Fake_Alcohol_Situa
tion_in_the_United-States_compressed.pdf (last visited
Sep. 24, 2018). The one case of unsafe retailed wine

43a
reported by the article was that of certain wines
containing diethylene glycol, that were recommended
for recall by the Federal Bureau of Alcohol, Tobacco,
Firearms and Explosives. See Banfi Products Corp. v.
United States, 41 Fed.Cl. 581 (1998). While the success
of regulation should never undermine the regulation
that made it possible, Michigan has not demonstrated
that the regulatory efforts of the Federal Government
and other state governments is so deficient as to
require Michigan to keep all retail shippers within its
state lines. Defendants have not demonstrated that
they lack alternative mechanisms (such as collecting
wine samples or barring the shipment of suspect
wines) for achieving their goal of product safety. The
product-safety justification thus lacks merit.
E.
Defendants have not proven that the
discriminatory elements of 2016 PA 520 advance a
legitimate local objective that can only be met through
discriminating against out-of-state commerce.
Michigan is therefore operating an unjustifiable
protectionist regime in its consumer wine market, a
privilege unsanctioned by the Twenty-first Amendment
and forbidden by the dormant Commerce Clause.
REMEDY
Plaintiffs urge the Court to remedy the
unconstitutionality of 2016 PA 520 by extending the
benefits of the bill to out-of-state retailers. The Sixth
Circuit has held that district courts have broad
discretion in fashioning the terms of injunctive relief,
including in wine commerce clause cases.
When a district court finds that a statute is
constitutionally defective, the court may either

44a
declare [the statute] a nullity and order that
its benefits not extend to the class that the
legislature intended to benefit, or it may
extend the coverage of the statute to include
those who are aggrieved by the exclusion.
Cherry Hill Vineyards, LLC v. Lilly, 553 F.3d 423, 435
(2008) (citations omitted).
Extension is generally preferred over nullification.
See Welsh v. United States, 398 U.S. 333, 361, 90 S.Ct.
1792, 26 L.Ed.2d 308 (1970) (“Where a statute is
defective because of under-inclusion there exist two
remedial alternatives: a court may either declare it a
nullity and order that its benefits not extend to the
class that the legislature intended to benefit, or it may
extend the coverage of the statute to include those who
are aggrieved by exclusion.”) Therefore the Court
chooses to extend the provisions to Plaintiffs.
CONCLUSION
With an aim to creating minimal interference in
the complex and interdependent statutory
infrastructure of Michigan alcohol, the Court holds
that 2016 PA 520 is unconstitutional insofar as the
Act, in conjunction with MLCC Section 436.1607
(restricting SDM licensees to Michigan entities)
precludes out-of-state sellers of wine from shipping to
Michigan customers. The law as amended by the
Act—which allows sellers of wine who hold a “specially
designated merchant license located in this state ... to
use a common carrier to deliver wine to a consumer in
this state ...”—may remain unaltered insofar as it
permits otherwise compliant out-of-state wine retailers
to either apply for and receive SDM licenses or ship to
Michigan customers with comparable out-of-state

45a
licenses. Finding the Commerce Clause sufficient
grounds for relief, the Court declines to reach
Plaintiffs' Privileges and Immunities claim.
The Court finds that there are no genuine issues of
material fact which would preclude judgment as a
matter of law in this case that 2016 Public Act
520—read in conjunction with MLCC Section
436.1607—violates the dormant Commerce Clause.
Consequently, Plaintiffs' Motion for Summary
Judgment [31] IS HEREBY GRANTED.
IT IS FURTHER ORDERED that Defendants' and
Intervenor's Motions for Summary Judgment [33, 34]
are DENIED.
For the reasons stated herein, the Court
DECLARES that Michigan's wine retail shipping laws
are unconstitutional insofar as they forbid out-of-state
retailers from shipping wine to Michigan customers.
Therefore, IT IS HEREBY ORDERED that
Defendants Michigan Governor Rick Snyder and
Michigan Attorney General Bill Schuette, in their
official capacities, and the State of Michigan ARE
PERMANENTLY RESTRAINED AND ENJOINED
from enforcing provisions of M.C.L. §§ 436.1607 and
436.1203 to preclude out-of-state retailers of wine from
shipping through interstate commerce to Michigan
customers. This order shall not prevent the State of
Michigan from collecting all appropriate taxes due on
the sale of the wine or from requiring licenses and
permits for direct interstate sales and deliveries.
SO ORDERED.

46a
APPENDIX C. U. S. Court of Appeals for the Sixth
Circuit, Order Denying Rehearing [Filed May 26,
2020].
Nos. 18-2199/2200
Lebamoff Enterprises Inc.; Joseph Doust; Jack Stride;
Jack Schulz; Richard Donovan,
Plaintiffs-Appellees,
v.
Gretchen Whitmer; Dana Nessel; Pat Gagliardi,
Defendants-Appellants (18-2199),
Michigan Beer & Wine Wholesalers Association,
Intervenor Defendant-Appellant (18-2200).
ORDER
Before: Sutton, Mckeague, and Donald, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the cases. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
Entered by Order of the Court
Deborah S. Hunt, Clerk

47a
APPENDIX D. Michigan Comp. L. § 436.1203*
(1) Except as provided in this section and section
301, a person shall not sell, deliver, or import alcoholic
liquor, including alcoholic liquor for personal use, in
this state unless the sale, delivery, or importation is
made by the commission, the commission's authorized
agent or distributor, an authorized distribution agent
approved by order of the commission, a person licensed
by the commission, or by prior written order of the
commission.
(2) Notwithstanding R 436.1011(7)(b) and R 436.1527
of the Michigan Administrative Code and except as
provided in subsections (3), (12), (13), (14), (15), and
(16), a retailer shall not deliver alcoholic liquor to a
consumer in this state at the home or business of the
consumer or at any location away from the licensed
premises of the retailer. The purpose of this subsection
is to exercise this state's authority under section 2 of
amendment XXI of the constitution of the United
States, to maintain the inherent police powers to
regulate the transportation and delivery of alcoholic
liquor, and to promote a transparent system for the
transportation and delivery of alcoholic liquor. The
regulation described in this subsection is considered
necessary for both of the following reasons:
(a) To promote the public health, safety, and
welfare.
(b) To maintain strong, stable, and effective
regulation by having beer and wine sold by
retailers to consumers in this state by passing
hrough the 3-tier distribution system established

*

Sections pertaining only to spirits or beer omitted.

48a
under this act.
(3) For purposes of subsection (1), a retailer that
holds a specially designated merchant license located in
this state may use a common carrier to deliver wine to
a consumer in this state. A retailer that uses a common
carrier to deliver wine to a consumer under this
subsection shall comply with all of the following:
(a) Pay any applicable taxes to the commission
and pay any applicable taxes to the department of
treasury as directed by the department of
treasury. On the request of the department of
treasury, a retailer shall furnish an affidavit to
verify payment.
(b) Comply with all laws of this state, including,
but not limited to, the prohibition on sales to
minors.
(c) Verify the age of the individual placing the
order by obtaining from him or her a copy of a
photo identification issued by this state, another
state, or the federal government or by using an
identification verification service. The person
receiving and accepting the order on behalf of the
retailer shall record the name, address, date of
birth, and telephone number of the individual
placing the order on the order form or other
verifiable record of a type and generated in a
manner approved by the commission and provide
a duplicate to the commission.
(d) On request of the commission, make available
to the commission any document used to verify
the age of the individual ordering or receiving the
wine from the retailer.
(e) Stamp, print, or label on the outside of the

49a
shipping container that the package “Contains
Alcohol. Must be delivered to a person 21 years of
age or older”. The recipient at the time of the
delivery shall provide identification verifying his
or her age and sign for the delivery.
(f) Place a label on the top panel of the shipping
container containing the name and address of the
individual placing the order and the name of the
designated recipient if different from the name of
the individual placing the order.
***
(5) For a delivery of wine through the use of a common
carrier under subsection (3), a person taking the order
on behalf of the retailer shall comply with subsection
(3)(b) to (f). For a sale, delivery, or importation of wine
occurring by any means described in subsection (4), a
person taking the order on behalf of the direct shipper
shall comply with subsection (4)(c) to (g).
***
(10) A direct shipper shall not sell, deliver, or import
wine to a consumer unless it applies for and is granted
a direct shipper license from the commission. This
subsection does not prohibit wine tasting or the selling
at retail by a wine maker of wines he or she produced
and bottled or wine manufactured for that wine maker
by another wine maker, if done in compliance with this
act. Only the following persons qualify for the issuance
of a direct shipper license:
(a) A wine maker.
(b) A wine producer and bottler located inside this
country but outside of this state holding both a
federal basic permit issued by the Alcohol and
Tobacco Tax and Trade Bureau of the United

50a
States Department of Treasury and a license to
manufacture wine in its state of domicile.
***
(12) A retailer that holds a specially designated
merchant license, a brewpub, a micro brewer, or an
out-of-state entity that is the substantial equivalent of a
brewpub or micro brewer may deliver beer and wine to
the home or other designated location of a consumer in
this state if all of the following conditions are met:
(a) The beer or wine, or both, is delivered by the
retailer's, brewpub's, or micro brewer's employee.
(b) The retailer, brewpub, or micro brewer or its
employee who delivers the beer or wine, or both,
verifies that the individual accepting delivery is
at least 21 years of age.
(c) If the retailer, brewpub, or micro brewer or its
employee intends to provide service to consumers,
the retailer, brewpub, or micro brewer or its
employee providing the service has received
alcohol server training through a server training
program approved by the commission.
(13) A retailer that holds a specially designated
merchant license may use a third party that provides
delivery service to municipalities in this state that are
surrounded by water and inaccessible by motor vehicle
to deliver beer and wine to the home or other
designated location of that consumer if the delivery
service is approved by the commission and agrees to
verify that the individual accepting delivery of the beer
and wine is at least 21 years of age.
***
(15) A retailer that holds a specially designated

51a
merchant license located in this state may use a third
party facilitator service by means of the internet or
mobile application to facilitate the sale of beer or wine
to be delivered to the home or designated location of a
consumer as provided in subsection (12) or this
subsection, and a third party facilitator service may
deliver beer or wine to a consumer on behalf of a
retailer that holds a specially designated merchant
license located in this state, if all of the following
conditions are met:
(a) If the third party facilitator service delivers
beer or wine under this subsection, the third
party facilitator service verifies that the
individual accepting the delivery of the beer or
wine is at least 21 years of age.
(b) A manufacturer, warehouser, wholesaler,
outstate seller of beer, outstate seller of wine,
supplier of spirits, or outstate seller of mixed
spirit drinks does not have a direct or indirect
interest in the third party facilitator service.
(c) A manufacturer, warehouser, wholesaler,
outstate seller of beer, outstate seller of wine,
supplier of spirits, or outstate seller of mixed
spirit drinks does not aid or assist a third party
facilitator service by gift, loan of money or
property of any description, or other valuable
thing as defined in section 609, and a third party
facilitator service does not accept the same.
(d) The retailer or consumer pays the fees
associated with deliveries provided for under this
subsection.
(e) The third party facilitator service offers
services for all brands available at the retail

52a
location.
(16) A retailer that holds a specially designated
distributor license located in this state may use a third
party facilitator service by means of the internet or
mobile application to facilitate the sale of spirits to be
delivered to the home or designated location of a
consumer as provided in subsection (14) or this
subsection, and a third party facilitator service may
deliver spirits to a consumer on behalf of a retailer that
holds a specially designated distributor license located
in this state, if all of the following conditions are met:
(a) If the third party facilitator service delivers
spirits under this subsection, the third party
facilitator service verifies that the individual
accepting the delivery of the spirits is at least 21
years of age.
(b) A manufacturer, warehouser, wholesaler,
outstate seller of beer, outstate seller of wine,
supplier of spirits, or outstate seller of mixed
spirit drinks does not have a direct or indirect
interest in the third party facilitator service.
(c) A manufacturer, warehouser, wholesaler,
outstate seller of beer, outstate seller of wine,
supplier of spirits, or outstate seller of mixed
spirit drinks does not aid or assist a third party
facilitator service by gift, loan of money or
property of any description, or other valuable
thing as defined in section 609, and a third party
facilitator service does not accept the same.
(d) The retailer or consumer pays the fees
associated with deliveries provided for under this
subsection.

53a
(e) The third party facilitator service offers
services for all brands available at the retail
location.
(17) A third party facilitator service shall not deliver
beer, wine, or spirits to a consumer under subsection
(15) or (16), as applicable, and shall not facilitate the
sale of beer, wine, or spirits under subsection (15) or
(16), as applicable, unless it applies for and is granted
a third party facilitator service license by the
commission. The commission may charge a reasonable
application fee, initial license fee, and annual license
renewal fee. The commission shall establish a fee
under this subsection by written order.
(18) If a third party facilitator service used by a
retailer that holds a specially designated merchant or
specially designated distributor license under
subsection (15) or (16), as applicable, violates this
section, the commission shall not treat the third party
facilitator service's violation as a violation by the
retailer.
***
(20) A common carrier that carries or transports
alcoholic liquor into this state to a person in this state
shall submit quarterly reports to the commission. A
report required under this subsection must include all
of the following about each delivery to a consumer in
this state during the preceding calendar quarter:
(a) The name and business address of the person
that ships alcoholic liquor.
(b) The name and address of the recipient of
alcoholic liquor.
(c) The weight of alcoholic liquor delivered to a

54a
consignee.
(d) The date of the delivery.
(21) A common carrier described in subsection (20)
shall maintain the books, records, and documents
supporting a report submitted under subsection (20) for
3 years unless the commission notifies the common
carrier in writing that the books, records, and
supporting documents may be destroyed. Within 30
days after the commission's request, the common
carrier shall make the books, records, and documents
available for inspection during normal business hours.
Within 30 days after a local law enforcement agency's
or local governmental unit's request, the common
carrier shall also make the books, records, and
documents available for inspection to a local law
enforcement agency or local governmental unit where
the carrier resides or does business.
(22) A third party facilitator service that delivers
beer, wine, or spirits to a consumer under subsection
(15) or (16), as applicable, shall submit quarterly
reports to the commission. A report required under this
subsection must include all of the following about each
delivery to a consumer in this state during the
preceding calendar quarter:
(a) The name and business address of the person
that ships beer, wine, or spirits.
(b) The name and address of the recipient of beer,
wine, or spirits.
(c) The weight of beer, wine, or spirits delivered to
a consignee.
(d) The date of the delivery.

55a
(23) A third party facilitator service shall maintain
the books, records, and documents supporting a report
submitted under subsection (22) for 3 years unless the
commission notifies the third party facilitator service
in writing that the books, records, and supporting
documents may be destroyed. Within 30 days after the
commission's request, the third party facilitator service
shall make the books, records, and documents
available for inspection during normal business hours.
Within 30 days after a local law enforcement agency's
or local governmental unit's request, the third party
facilitator service shall also make the books, records,
and documents available for inspection to a local law
enforcement agency or local governmental unit where
the third party facilitator service resides or does
business.
***
(25) As used in this section:
(a) “Common carrier” means a company that
transports goods, on reasonable request, on
regular routes and at set rates.
(b) “Computer” means any connected, directly
interoperable or interactive device, equipment, or
facility that uses a computer program or other
instructions to perform specific operations
including logical, arithmetic, or memory functions
with or on computer data or a computer program
and that can store, retrieve, alter, or
communicate the results of the operations to a
person, computer program, computer, computer
system, or computer network.
(c)
“Computer
network”
means
the
interconnection of hardwire or wireless

56a
communication lines with a computer through
remote terminals, or a complex consisting of 2 or
more interconnected computers.
(d) “Computer program” means a series of
internal or external instructions communicated in
a form acceptable to a computer that directs the
functioning of a computer, computer system, or
computer network in a manner designed to
provide or produce products or results from the
computer, computer system, or computer
network.
(e) “Computer system” means a set of related,
connected or unconnected, computer equipment,
devices, software, or hardware.
(f) “Consumer” means an individual who
purchases beer, wine, or spirits for personal
consumption and not for resale.
(g) “Device” includes, but is not limited to, an
electronic, mag net i c, electrochemical,
biochemical, hydraulic, optical, or organic object
that performs input, output, or storage functions
by the manipulation of electronic, magnetic, or
other impulses.
(h) “Diligent inquiry” means a diligent good faith
effort to determine the age of an individual, that
includes at least an examination of an official
Michigan operator's or chauffeur's license, an
official Michigan personal identification card, or
any other bona fide picture identification that
establishes the identity and age of the individual.
(i) “Direct shipper” means a person who sells,
delivers, or imports wine, to consumers in this

57a
state, that he or she produces and bottles or wine
that is manufactured by a wine maker for another
wine maker and that is transacted or caused to be
transacted through the use of any mail order,
internet, telephone, computer, device, or other
electronic means, or sells directly to consumers on
the winery premises.
(j) “Identification verification service” means an
internet-based service approved by the
commission specializing in age and identity
verification.
(k) “Mobile application” means a specialized
software program downloaded onto a wireless
communication device.
(l) “Qualified micro brewer” means a micro
brewer that produces in total less than 1,000
barrels of beer per year. In determining the
1,000-barrel threshold, all brands and labels of a
micro brewer, whether brewed in this state or
outside this state, must be combined.
(m) “Third party facilitator service” means a
person licensed by the commission to do any of
the following:
(i) Facilitate the sale of beer or wine to a
consumer as provided in subsection (15) on
behalf of a retailer that holds a specially
designated merchant license located in this
state.
(ii) Facilitate the sale of spirits to a consumer
as provided in subsection (16) on behalf of a
retailer that holds a specially designated
distributor license located in this state.

58a
(iii) Deliver beer or wine to a consumer as
provided in subsection (15) on behalf of a
retailer that holds a specially designated
merchant license located in this state.
(iv) Deliver spirits to a consumer as provided in
subsection (16) on behalf of a retailer that
holds a specially designated distributor license
located in this state.

